A87
Eric Goldsmith, M.D., PC
The American Board of
Psychiatry and Neurology
Diplomate In Psychiatry
With Certification In the
Subspecialty of Forensic
Psychiatry

420 Madison Ave, Suite 80 i
New York, NY 10017
Tel: 212-486-2754
Fax: 212-486-2758
Eric,Goidsmith@gmail.com

PSYCHIATRIC REPORT
EXAMINEE:
INDICTMENT No.:
DATE OF BIRTH:
DATE OF REPORT:

JOSUE PORTILLO
US v. Portillo, 17-366(JB)
MAY 1st, 2001
JUNE 22, 2018

PURPOSE OF EVALUATION: Joseph W. Ryan, Jr., attorney for the defendant,
Josue Portillo requested that I conduct a psychiatric evaluation of his client Josue
Portillo, currently a 17-year-old male, was 15 years, 11 months when reportedly as a
member of the MS-13 gang he participated in the April 11, 2017 murders of Justin
Liivicura, Michael Lopez, Jorge Tigre and Jefferson Villalobos. Mr. Portillo has been
charged with Racketeering, Racketeering Conspiracy, Conspiracy to Murder Rival Gang
Members, and the “April 11 Murders". The Government has made a motion to the Court
to transfer Josue Portillo to District Court for Prosecution as an Adult.
The purpose of this evaluation is to conduct a comprehensive psychiatric assessment,
provide a diagnostic impression, and to assess the following factors relevant to the
standards by which transfer to adult status Is considered in the interest of justice, namely
(1) the juvenile's age and social background; (2) the nature of the offense alleged; (3) the
nature and extent of any prior delinquency record; (4) the juvenile's present psychological
maturity and intellectual development; (5) the juvenile's response to past treatment efforts
and the nature of those efforts; and (6) available programs that are designed to treat the
juvenile's behavior problems. See 18 U.S.C. § 5032; Nelson 1,68 F.3d at 588.
SOURCES OF INFORMATION:
• Interview with Mr. Portillo at the Suffolk County Jail on April 11, 2018, for
approximately 4.5 hours. The interview was conducted in the presence of his
attorney, Joseph W. Ryan, Jr., with the assistance of Spanish speaking interpreter Jose
Carlos Venant
• Review of records from the State of New York, Suffolk County Family Court, Docket
G-00188-16 concerning Mr. Portillo’s guardianship status, petitioning for his mother
to be appointed his sole guardian.
• Review of Central Islip Union Free School District Records from September 2015June2017.
• Review of Community Reinvestment Report dated February 14,2017.
• Review of Government’s Motion and Memorandum of Law in Support of Motion to
Transfer Josue Portillo to District Court for Prosecution as an Adult, prepared by
Richard P. Donoghue, U.S. Attorney, Eastern District of New York.
• Review of Suffolk County Probation Department File.

A88
JOSUE PORTILLO
PAGE 2
•
•

Review.of U.S. v. Juvenile Male, 269 F. Supp. 3<J 29.
Review of U.S. v. Juvenile Female, June 11, 2018 memorandum and order,
17-CR-362 (J.F.B.).
• Review of November 22, 2016 in U.S. District Judge Paul A. Engelmayer decision,
U.S. v. C.F., 225 F. Supp. 3d 175.
• Review of various correspondences from Joseph W. Ryan, Jr.
• Telephone interview with Josue Portillo’s mother, Vllma Portillo on May 16, 2018
with the assistance of Spanish-speaking interpreter Jose Carolos VenanL
• Face-to-face interview with Vilma Portillo on June 16, 2018, at the office of Joseph
W. Ryan, Jr. for approximately 3.0 hours. The interview was conducted in the
presence of Joseph W. Ryan, Jr. with the assistance of Spanish-speaking interpreter,
Jose Carlos Venant.
Mr. Portillo was informed that the purpose of the
CONFIDENTIALITY:
evaluation was to provide a psychiatric assessment to his Attorney, the U.S. Attorney aod
the Court. Mr. Portillo understood that information about our meeting was not
confidential to that extent He understood that a treatment relationship was not being
established.
BACKGROUND: Mr. Portillo was bom in Lolotiquillo, a small town in El Salvador.
He describes the community he grew up in as predominantly rural, with a small
population. His parents were unmarried, and hjs father left before Mr. Portillo was bom.
Mr. Portillo has never met his father or had any form of communication with him. Mr.
Portillo has one older sister and one younger sister. When Mr. Portillo was 3 years old,
his mother emigrated to the United States in search of better job opportunities. She left
Mr. Portillo and his older sister in the care of his maternal grandmother, who supported
them by fanning and selling a blood supplement made from roots. Between the ages of 3
and 14, Mr. Portillo did not see hjs mother, although they occasionally spoke over the
phone. However, he reports that those conversation were relatively infrequent and brief,
as he felt “embarrassed” by talking to her too long.
Vilma PortiLlo reports to (his examiner at the June 6, 2018 interview, that she gave birth
to Josue at the age of 23. Three years earlier, she had given birth to Josuc’s sister,
Cyndy. Neither Josue or Cyndy had relationships with their fathers. Vilma Portillo
reports that Josue’s father abandoned her while she was three months pregnant. Vilma
Portillo reports that she entrusted the child-rearing duties of her two children to her then
60+-year-o)d mother, Angella.
Vilma Portillo reports that she grew up in poverty. Her mother worked selling prepared
hot foods and washing clothes. Her father died when she was two years old. Vilma
attended school until the third grade. She says she can read a little bit of Spanish. After
leaving school, she went to work. By the time she entered her teenage years, she traveled
to a nearby town to work as a house cleaner When Josue was 3-year-oJd and Cindy 5,
Ms. Portillo left San Salvador and came to America. Her mother, Angella, was 68 years

old at that time and took over total child-rearing responsibilities. Angella also sold a root
infused product in the local economy, which was supposed to help with anemia.

A89
JOSUE PORTILLO
PAGE 3

Vilma Portillo reports that when she arrived in the United States, she maintained contact
with her children and her mother by telephone. It appears that Ms. Portillo's mother,
Angella was competent and in a good stale of health to parent her grandchildren.
She enforced rules and was concerned about the children being exposed to negative
influences and gang violence. She attended church services and brought the children
with her.
Vilma Portillo reports that initially her son Josue was well behaved with his grandmother.
He did not evidence early childhood oppositional defiant behaviors. He did not evidence
antisocial behaviors. He followed his grandmother's directions, attended school, did well
and went to Sunday church services with his grandmother and sister.
However, Vilma Portillo reports that about the age of 8, Josue was evidencing more
defiant behaviors. She says her mother became concerned hecause he would go off with
his friends who smoked cigarettes and marijuana and they seemed to have some influence
over him. By his early teenage years, Josue had become more defiant of his
grandmother. She knew that he was smoking marijuana. She knew that he was spending
time at the soccer fields with unsavory characters.
Vilma Portillo reports that she and her mother grew increasingly concerned that Josue
would end his hopes for the future and fall prey to the influences of the gang and drug
culture in El Salvador. When he was 14 years old, Vilma Portillo made arrangements for
Josue to come to America. Cindy remained in El Salvador with her grandmother. She
continued in school and has thrived under her grandmother’s parenting, Ciady has
graduated high school and is planning to attend college in San Miguel, El Salvador.
Josue Portillo reported that as a child he had no history of social or behavioral
difficulties. He got along well with his peers and received passing grades in his El
Salvador school. He played soccer on an almost daily basis and describes this has his
favorite activity.
When Mr. Portillo was 12, he says he began smoking cigarettes. He also reports that he
smoked marijuana. However, he denied using marijuana regularly before coming to the
U.S., in part because marijuana was not readily available to him. He also reported trying
alcohol around this age but denied regular use.
When Mr. Portillo was 12, gang members started to arrive in his El Salvador community.
He stated they were readily apparent because of their apparel. He identified them as
members of the MS-13 gang and stated that prior to their arrival there bad been no gang
activity in the area that he was aware of; and that there were no other gangs, either before
or after MS-13 arrived. The gang members would frequently come to the field where Mr.
Portillo played soccer, and he sometimes spoke or exchanged cigarettes with them.
However, he denied having any official involvement with MS-13 while in El Salvador.

A90
JOSUE PORTJELO
PAGE 4
After die arrival of the gangs, the area where Mr. Portillo lived became more violent.
People started disappearing from the community, including someone associated with Mr.
Portillo’s soccer league. His cousin’s husband was also killed by gang members. In
addition, there were frequent altercations between the gang and the police, and Mr.
Portillo reports witnessing several incidents of police brutality. He says that unlike in
America, the police force in El Salvador are not to be trusted.
Around this time, Mr. Portillo describes displaying defiant behaviors towards his
grandmother, ignoring her rules and spending significant amounts of time hanging out on
die streets with his friends. AJthough he denied being a gang member al this time, he
reported feeling that joining a gang was going to be inevitable, as those who didn’t join
were victimized. Due to bis growing oppositional defiant behavior with his grandmother
and the increase in violence in the area, when Mr. Portillo was 14, he says his mother and
grandmother decided it would be best for him to join his mother in the United States.
Mr. Portillo’s journey to the United States occurred in July and August of 2015. It was an
experience Mr. Portillo describes as traumatic. He reports that during part of the trip he
was transported in an unventilated shipping container that was so crowded it was
impossible to stand without touching other people. At another point, the truck he was in
was so crowded that there were 3 other teenagers on top of him and he felt that he
couldn’t breathe. He also reports having to run away from immigration officials and had
to hide flora them in a trough. After he crossed the border, Mr. Portillo was taken into
custody by other immigration officials. He was eventually sent to the Bronx, where he
was reunited with his mother.
Mr. Portillo reported that after the journey from El Salvador, he would have frequent
nightmares about the trip, and would have difficulty being in hot, areas, as they reminded
him of the crowded conditions he bad endured. However, he stated that this was no
longer happening at the time of the evaluation with this writer.
On arrival to New York, Mr. Portillo stayed in a group home for approximately a month
before going to stay with his mother. His mother lived in an apartment in Central Islip,
Ixmg Island with her partner Jose Diaz, Jose’s grandmother, and Mr. Portillo’s younger
half-sister, Genesis.
Vilma Portillo reports that when Josue first lived with her in Central Islip, he appeared in
good spirits and was cooperative. Josue enjoyed being taken to the. soccer fields by Jose.
He attended the local public school and attempted to learn. She says he did well in
school /tnring hjs first year, which Is consistent with what is documented in the school
record. Vilma Portillo reports that Josue appeared initially motivated to perform well in
school. She says it was a challenge because he did not speak English, so he attended
bilingual classes. Vilma Portillo reports that it was her observation that Josue had poor
frustration tolerance. She says if the school was placing demands on him, which he
found arduous, he would get upset and not do his work or leave the classroom.

A91
.TOSUE PORTILLO
PAGE 5
Vilma Portillo reports that when Josue attended the Central Islip High School, things
drastically changed for the worse. She reports that he would get dropped off at school in
the morning but take it upon himself to leave class. His school performance deteriorated.
Vilma Portillo says she was brought into school by the counselors. She reports Josue
received counseling and a social worker made visits to their home. Vilma Portillo did not
appreciate that at the time, her son was smoking large amounts of marijuana. She did not

know that he had joined the MS-13 gang. She says however, that she was worried about
him. He was not violent at home, but he was moody and withdrawn. Though, in some
respects, she says she believed his problems were typical adolescent behavior.
Josue Portillo entered the 8th grade in the fell of 2015. He reported that adjusting to the
new school was very difficult The school was much larger and more crowded than he
was used to. In addition, he found the academic work more difficult The curriculum was
more challenging, and he did not speak the language.

Mr. Portillo says he joined MS-13 approximately a month after arriving in the U.S. Mr.
Portillo provided several reasons explaining his motivation for joining MS-13. When he
first arrived in Central Islip, he describes feeling uncomfortably estranged from his
mother. He says he “did not know her”, “it was weird.” He reports feeling more at ease
with the other youths from El Salvador who were in the MS-13 gang. He reported that he
joined the gang because he had a desire for respect, and he believed that the people in his
area in the U.S. had a respect for the gang members, sighting the fact that the MS-13
gang is prominent in popular culture and the news. He also stated that he thought that the
gang would allow him easier access to friends, women, and marijuana, which he had
begun using with increasing regularity since his arrival to the U.S.
Beginning in the latter half of the 8th grade, Mr. Portillo began to receive disciplinary
action in school for disruptive behavior and truancy. On 4/25/16, he received 1 day of in
school suspension (1SS), and on 6/08/16, he received 2 days of off-site suspension (OSS).
Although Mr. Portillo performed adequately in most school subjects, he needed to retake
math and English in summer school after completing the 8“' grade. He passed both
classes.
In the summer of 2016, when Mr. Portillo was between 8th grade and high school, he says
he was approached outside a 7-Eleven by the victims of the alleged offense, who were
members of a rival gang. They asked him if he were a member of MS-13 and threatened
to beat him tip if he were^Mr. Portillo denied being a member of MS-13 and escaped the
situation

A92
JOSUE PORTILLO
PAGE 6

When Mr. Portillo entered the Q1*1 grade at Central Islip High School in September of
2016 his pattern of truancy and disruptive behavior increased significantly and escalated
throughout the course of the year. On 9/19/16, Mr. Portillo received In School
Suspension (ISS) for one day. after he was truant and refused to follow the instructions of
a school security officer. On 10/24/16 he received 5 days of ISS for ongoing behavioral
issues. In total, by 12/05/16, he had 20 full days truancy and 12 days of partial truancy.
Because of his persistent truancy, deteriorated school performance and cannabis use in
October of 2016, Mr. Portillo was referred to the Person in Need of Supervision (PINS)
program, and his case was officially opened on 12/06/16. Through tbe Community
Reinvestment Program (CRP), Hope for Youth was contracted to work, with Mr. Portillo,
and he was assigned a Case Manager, Stephanie Rivera. However, it does not appear that
these interventions made a significant impact. In the first academic quarter of 2016, Mr.
Portillo failed 4 of his 10 classes. Available records indicate that these grades were a
reflection of poor attendance, rather than of academic difficulty.
On 12/14/16 Mr. Portillo was caught smoking marijuana on school property. At that time,
he received 5 days of offsite supervision (OSS). He received OSS again on or around
01/31/18 for 5 days after fleeing school security officers. On 4/03/17, be received OSS
again for 5 days, after he was insubordinate, cutting class, and being in an unauthorized
area. Due to spring break, this- suspension lasted until 4/18/17, and he received OSS
again on the day after he returned, 04/19/17, for 5 days for insubordination, and entering
the female bathroom. These episodes of offsite suspension were interspersed with several
days of ISS, and on 5/22/17 he received OSS for 5 days due to, among other things,
refusing to attend ISS. By this time, the “April 11 Murders" had already occurred.
School records indicate that in addition to Mr. Portillo’s frequent imexcused absences, he
was also frequently disruptive and oppositional in class. He would often not participate in
the assigned activity, would yell and talk back to foe teacher, and on occasion would
throw things.
The records also indicate that the school made numerous attempts to work with Mr.
Portillo's mother to address his problematic behavior. In addition to requesting frequent
parent-teacher conferences, they had numerous phone calls and discussion about ways in
which she could attempt to implement more discipline in foe household. These records
indicate that Mr. Portillo’s mother conveyed to his teachers her frustration with her son’s
behavior and her difficulty exercising any sort of control over his behaviors. For instance,
she would drop him off at school every day, but Mr. Portillo would immediately sneak
out and go hang out with friends. CRP counselling records indicate that part of why she
had difficulty controlling Mr. Portillo was their distant relationship and her lack of
involvement in his life up until that point. It appears that Vilma Portillo, an uneducated
woman who had no experience in parenting a high school age student, lacked the
necessary judgement and skills to successfully supervise and advocate for her son.

A93
JOSUE PORTILLO
PAGE 7
When interviewed by this examiner, Mr. Portillo reported that during his 901 grade year
he was frequently bored by school and preferred to spend his time smoking marijuana
and hanging out with girls and his friends in MS-13. He reported that be was smoking
marijuana on a daily basis. He would always smoke in the morning and would frequently
smoke in the evening. At times he would stay out late with his friends and refuse to
follow his mother’s instructions on when to return home. He stated that at that time he
had already made the decision that he was going to leave school at the earliest
opportunity and get a job. Vilma Portillo reports that her son had repeatedly stated that
he wanted to drop out of school and work.
Mr. Portillo reported that during his 9lh grade year, his rank in MS-13 was a "paro,” the
lowest rank in the gang. According to Mr, Portillo, in order to be promoted in MS-13, it
is necessary to kill a member of a rival gang. However, sometime during the course of
that year, he told a higher-ranking MS-13 member about his altercation with the rival
gang members outside the 7-Eleven. Because of that altercation, and another incident
involving, the victims and a high-ranking member of the local chapter of MS-13, a plan
was made to assassinate these rivals, with the understanding that Mr. PortiLIo would be
promoted in MS-13 if he participated.
LEGAL HISTORY:
Mr. Portillo had one prior arrest for a minor crime, when in
early 2017, when he was found to be loitering in an abandoned building.
Mr. Portillo received talk therapy through the CRP
PSYCHIATRIC HISTORY:
following Ws designation as a PINS. He and his mother reported that he has never
received a psychiatric diagnosis and has never taken psychiatric medication.
Mr. Portillo began smoking marijuana at age
SUBSTANCE ABUSE PROBLEM:
12. By age 14, he was using large amounts of cannabis on a daily basis. He has no
history of abusing alcohol or other illicit substances.
According to Mr. Portillo’s
MEDICAL AND DEVELOPEMENTAL HISTORY:
mother, he was born oo time and without complications. He met all developmental
milestones on lime and did not experience any developmental delays. He has no
significant medical history.
MENTAL STATUS EXAMINATION: At the time of the evaluation wilb this
writer, Mr. Portillo was a 1.6-year-old male, who appeared his slated age. He was calm
and cooperative with the evaluation and appeared to make a good effort to be honest and
forthcoming. His attention and concentration were adequate, and there was no indication
of any cognitive limitations. He spoke fluent Spanish, and the evaluation was conducted
with the aid of an interpreter, although it did appear that Mr. Portillo understood many of
the questions asked of him. His thought process appeared organized, and there was no
indication of any sort of thought disorder or hallucinations. He reported some recent
periods of depression and thoughts about wanting to be dead but denied any of these at
the time of the evaluation. During the course of the evaluation, Mr. Portillo displayed
very little emotional range, and his facial expressions and tone were the same when

discussing both good and bad memories. Although there was no evidence of cognitive

A94
JOSUE PORTILLO
PAGE 8
limitations, Mr. Portillo gave the impression of being immature for his age. His manner
did not indicate a full appreciation of the gravity of the charges against him, or of the life
altering implications of those charges. He also did not appear to have insight into his own
motivations or behaviors.
DIAGNOSIS:

Oppositional Defiant Disorder.
Cannabis Use Disorder.
Adolescent Anti-Social Eebavior.

FORMULATION: Mr. Portillo is a 17-year-old mate member of the MS-13 gang, He
is accused of gang related crimes, including participating in the fatal stabbing of four
rival gang members. Mr. Portillo was 15 years 11 months old at the time of the “April 11
Murders,” During the evaluation of Mr. Portillo on 4/11/18, there was no indication of
the presence of any major mental illness. In addition, Mr. Portillo, Mr. Portillo’s mother
and available school and therapy records agree that Mr. Portillo has no history of a major
psychiatric disorder.
However, beginning at the age of 8, while living with his grandmother and older sister in
El Salvador, Josue Portillo began to evidence oppositional defiant behaviors which
continued throughout his adolescence and up until his arrest. Josue Portillo has
evidenced difficulty with the self-control of his emotions and behaviors. He can be easily
annoyed, and actively defies or refuses to comply with authority figures, meeting the
DSM-5 diagnostic criteria for Oppositional Defiant Disorder.
Most significantly, Josue Portillo began using marijuana al the age of 12 and by age 14,
his use escalated to daily large quantities. He meets DSM-5 diagnostic criteria for'
Cannabis Use Disorder.
The scientific literature has now rapidly demonstrated the negative effects of cannabis on
the adolescent developing brain, which is particularly vulnerable to lasting damage from
marijuana use. It has repeatedly been demonstrated that adolescents who use large
quantities of cannabis have poorer school and psychological functioning .with lowered IQ
scores, problems in self-control and diminished impulse control Most significantly, for
adolescents the frontal cortex bas not fully developed. It bas been shown that use of large
quantities of cannabis in adolescents is toxic to the developing frontal cortex resulting in
problems with planning, judgment, decision making and personality. Adolescents who
use large quantities of marijuana are likely to show these executive function problems.
According to United States v. Nelson 68 F.3d 583, 588 (2d Cir. 1995j, when evaluating
whether a transfer to adult status would be "in the interest of justice," a district court must
consider the following six factors and make findings on the record as to each: (1) the
juvenile's age and social background; (2) the nature of the offense alleged; (3) the nature
and extent of any prior delinquency record; (4) the juvenile's present psychological
maturity and intellectual development; (5) tbc juvenile's response to past treatment efforts
and the nature of those efforts; and (6) available programs that are designed to treat the
juvenile's behavior problems. Below 1 will address those factors that can be spoken.erf

from a psychiatric perspective.

A95
JOSUE PORTILLO
PAGE 9

Mr. Portillo’s Age and Social Background:
Mr, Portillo is a 17-year-old male,
bom Lolotiquillo, a small town in El Salvador. He was raised primarily by whai appears
to be a competent grandmother after he was left by both parents at an early age. He never
knew his father, and his mother moved to the United States when he was 3 years old. His
mother, Vilma Portillo was raised in poverty, is uneducated and lacked the Decessary
skills to adequately parent her adolescent son.
Although he and his mother
coramunioated sporadically between her emigration and his at the age of 14, they were
not close, and Mr. Portillo reports that he has had difficulty in the past relating to her as a
maternal figure. He felt awkward in her presence when he came to the United States. Mr.
Portillo’s grandfather died when Vilma Portillo was relatively young, and it does not
appear that Josue Portillo had any significant male role models during his formative
years. Mr. Portillo reports that his family had limited financial means, as evidenced by
his mother leaving her small children in order to seek out economic opportunities. His
grandmother supported him and his older sister primarily by fanning and selling root
medicine. The transition from rural El Salvador to New York appears to have been a
difficult and destabilizing one for Mr. Portillo. He endured significant trauma during the
journey, and had a hard time adjusting to the crowds and academics in his new school. In
addition, the lack of a relationship with his mother left him more isolated and with few
sources of support in a country where he did not speak the language. This destabilization
left him vulnerable to dangerous influences, particularly in the form of an older cousin,
who was already a member of the MS-13 gang and had also immigrated to the U.S. from
Lolotiquillo. Although he denies any involvement in gangs prior to coming to the U.S.,
within a month of arrival he had joined MS-13. Mr. Portillo maintains that he approached
MS-13 representatives and expressed interest. However, based on the narrative be relates,
it appears that the gang actively recruited him, initially through his cousin, who
introduced Mr. Portillo to other members, and also through inducements such as access to
marijuana and women. Feeling alienated in his home with his mother, Josue Portillo
found the camaraderie with other adolescents from El Salvador who were in the MS-13
gang very appealing.
Tbe Nature of the Offense Alleged:
It is alleged that Mr. Portillo participated in
a plan to lure 5 members of a rival gang into the woods, where he and other members of
the MS-13 gang stabbed 4 of them to death in retaliation for threats the victims had made.
He is also accused of other gang related crimes.
The Nature and Extent of Any Prior Delinquency Record:
Mr. Portillo bad one
previous arrest, in the winter prior to his arrest, when he was found trespassing in an
abandoned building. In addition, he had an extensive history of truancy from school,
received extensive disciplinary actions in the form of numerous suspensions, and was
once caught smoking marijuana on school property.

A96
JOSUE PORTILLO
PAGE!fl

Mr. Portillo's Present Psychological Maturity and Intellectual Development: Mr.
Portillo does not appear to have any intellectual limitations. Although his academic
records indicate he has failed several classes in the past, these failures appear to be the
result of poor attendance and effort rather than intellectual limitations. He appears to have
met all of his developmental milestones within a norma) time frame. He is currently not
suffering from any appreciable sign of major mental illness. Although he does admit to
some anxiety about his future and some passive thoughts about wishing to be dead, these
are of an intensity expectable given his current legal situation. In fact, during the
evaluation with this writer, Mr. Portillo seemed less anxious and distressed than would
usually be expected, given the gravity of his charges. This is potentially due to the fact
that he appears to be immature for his age. This immaturity is manifested in his difficulty
understanding or expressing his motivations for his behaviors (such as the decision to
join MS-13), the superficiality with which he views his current situation, and the selfinvolved way in which he frames the events leading to his arrest, and his difficulty in
considering the ways in which his actions arc likely to impact others. However, Josue
Portillo consistently nsed large quantities of marijuana. Understanding the effects of
large quantities of cannabis on the developing adolescent frontal cortex, he likely has
executive function problems involving judgement and decision making
Mr. Portillo’s Response to Past Treatment Efforts and the Nature of those Efforts:
Mr. Portillo engaged in a brief coarse of therapy with bis CRP counselor in the months
leading up to his arrest. Records indicate that during this time, Mr. Portillo concealed the
extent of his gang involvement from his therapist. There is no indication that Mr. Portillo
was either benefitted or harmed by this intervention.
Available Programs designed to treat the Juvenile’s behavior: Mr. Portillo does not
evidence psychiatric or intellectual limitations that would prevent him from being able to
successfully engage in a residential program for juveniles. A juvenile residential
treatment program is the idea] choice of treatment environment for Josue Portillo. These
programs are able to manage behavioral and substance abuse problems. Josue Portillo
requires intensive substance abuse treatment to assist him in achieving lasting sobriety.
The components of his program should include modules of psychoeducation, relapse
prevention, and therapeutic elements of motivational interviewing techniques. Josue
Portillo requires cognitive behavioral psychotherapy to address his oppositional defiant
and antisocial behaviors. Behavioral interventions will over time extinguish the
unwanted problematic behaviors replacing them with prosocial behaviors. In addition,
education turd vocational training services available at a juvenile residential treatment
facility will support emotional and psychological growth, providing him with the positive
experience of productivity.

A97
JOSUE PORTILLO
PAGE 11

If Josue Portillo is able to successfully complete the treatment, educational and
vocational components of juvenile residential treatment program., his risk of recidivism

would be significantly reduced.
Respectfully submitted,

»

\PC
Goldsmith,
'Diploraate in Psychiatry with Certification in the Subspecially of Forensic Psychiatry,
A.B.PiN.
j
Clinical Assistant Pjafessor of Psychiatry, New York University School of Medicine
ua

A98

Community Reinvestment
Program Report

A99
HFY IDT Narrative
Case Number: 124
Child’s Name: Josue Portillo

Date of IDT: 2/14/17
Program: CRP

Please provide a brief explanation of actionable domain items and the goals associated with those items.
Narrative goals should be the same as those on the CANS form.
Demographic Information:
Josue Portillo is a 15-year-old Salvadoran male who arrived to the United States in 2015. Josue is
currently living in Central Islip in a multi-family home with his birth mother's and birth
mother’s current boyfriend named Jose Diaz and his family. Birth mother and boyfriend
have one child together, a 6-year-old girl named Genesis.
Child Strengths:
CRP is in process of learning more about Josue. Josue is a 15-year-old Salvadorian male,
who lived in El Salvador with his maternal grandmother and older sister. Josue describes
having a closing relationship with his family in El Salvador and misses them. Josue has
little to no information of birth father since birth father left when Josue was a child. Birth
mother states she has heard rumors about Josue’s birth father being dead, however no one:
is sure about those details. In 2015, Josue migrated to the United States due to behavior
issues he was having in El Salvador. According to Birth mother, maternal grandmother
stated that Josue was disobedient and was not following grandmother’s rules. Birth
mother states that Josue’s older sister witness Josue coming home drunk and smelling
like marijuana since the age of 12. Therefore, birth mother decided for Josue to come to
the United States and reside with her in hopes of him doing better. Josue and birth mother
have a strain relationship. Birth mother states Josue has no emotional connection towards
her. Mother fears that something will happen to her son in the streets. Birth mother is ■
aware of Josue’s substance use since he is open about it. Josue enjoys playing soccer, and
reports that he likes to hangs out with friends in the community.
IDT 2-14-17
CANS score for family origin has increased from a 1-2.
During this reported time CRP has learned more about Josue. Josue is a very resilient
adolescent who desires to do well and improve his school behaviors and drug use. Josue
has been compliant with working with therapist and participating in therapy. Birth mother
and Josue have both expressed a distant relationship with one other. Although both care
for each other, both Josue and birth mother are in the beginning stages of learning .more
about each other.

:Y

Case manager has only meet with Josue 3 times, as family either forgets appointments,, as
well as'assisting birth mother with more prevalent situations. Case manger has started but
not completed Casey life skills with Josue, and is still in the process of learning about
Josue. According to YES report Josue has not meet with the program.

I

A100
______(

...
:' ' Vt

•

.

j'i.

'■'■

'

.. ;

■■ V-I

/a.a-

/Therapist and'JosueJmii work together to find out wbat::mdti-vatesiarid enco.uj,‘agfs |c>stie^>
4Q;SWcee|d. (/In progress) :' /'T- ,-:.T..v;.V
jQSue^dil posses a greater level of selfresteem? (Ip progress); ' -y. ; ,T. ■■,v
: Joshe/Will; Ipam p&sitiye cpping apd; cpmmuhioatioh^slolls /^ feprogres^)^ £■],_ ; *.
fI
idhst^IltooM^
; 'T :T".
?
*&*$&%

Child Needs and Functioning:
CRP is currently evaluating for any needs Josue may need, and have only meet with
Josue one time. However, birth mother states he does not follow parental rules and walks
in and out the house when he wants.
Sl)T2-14-17
CANS score for Dental needs has increased from a 0-1.
As we have learned, Josue struggles with following parental rules. Therapist is learning a
little bit more, as to why this is. Josue struggles to connect with his birth mother, as they
do not have an emotional bond or connection with one another. Birth mother struggles
with setting limits and disciplining Josue. Birth mother is willing to make a connection' .
with her son, however feels like this would be a difficult process since she states she has
lost hope,
Case manager has attempted to gather Josue medical and well as dental information,
However, Birth mother is unaware of the location, and contact information of Josue’s
medical provider. Birth mother recently reinstated Josue health insurance, which was
active as of 2/1/17. Birth mother is in the process of setting up medical appointment for
Josue. Case manger is to follow up with birth mother on 2/15/17. In the meantime, Case
manager is in the process of getting a copy of Josue last physical from Central Islip high
school. Josue does not have any current known medical condition and is not on
medications.

Caregiver Strengths and Needs Domain;
CRP is still getting to know birth mother. During first family session, birth mother shared
her struggle with forming a relationship with her son since his arrival.' Birth mother stated
V'

•2-

A101
she was embarrassed to ask for her help, but decided to follow through due to her not
wanting to see her son go down the wrong path.
.•;
IDT. 2r 14-1?
Case manager assisted Birth Mother with understanding Josue reinstatement of health
insurance and explained activation dates and information on insurance card. Case
manager also assisted Birth with how to property use her cell phone in order to check
voicemails. Birth disclosed that she has a limited education and does not know how to
read or write well, but has shown ability to text with Case manger and Therapist. Birth'
mother can be disorganized with keeping appointments, and often needs reminder the day
before or day of appointments. Case manager has.also started help Birth mother learn and
understand parent right with school involvement.
Goals: i "
•

V*

•«

- *

%•

*+

; * ..

*1
.

,

.....

,

..

i.

** -

;B[yi.wi11; expr.essitp Jp.lip..her belief in him, aod'ei?couf^geJjc>^yie'l:Q"r^li
• Biyi Wilj-learn more'about Hdr.sqri drid'-leafn jfp^t6;etndjtiQr]idj!V^dh.i1j6.ct
iprogressK ,' v,’V,

■;BM‘W.li);.;dhd:erstand.^dsses^^p'sjti^.'pai'entip^'ski)!s,jCtfhs.6q9ehce;s:'dindlJjmit;Sd.ttIhig4fbrvf
’ BM. ^ijihay6'%rpwh,;splf:bafe rjoutjhe^d 1 hait'she^ahbejhef be|tse)faiid^i«r^p^^
;'BM,y(i,ill,gain:kribvylfe,dge .Or}, parents right in regards ,tO 'school-'Nety-goals

^ ;,f' i
•;
ii

Adverse Childhood Experiences:
CRP is getting to know Josue. Josue shared a little bit about his childhood experience
when living jn El Salvador. Josue states that he was brought to the United States withouthim having a say. Josue stated that he wanted to come over, but did not have a choice as
to when he was coming over. Josue states that his birth mother surprised him with his
migration travels.
D)f ^1417

4

During this reported time therapist has learned more about Josue’s life. Josue shared.with
therapist about his migration process. Josue experienced trauma during his migration 1=;
journey and described it as a life or death situation. Josue shared with therapist at times
he experiences nightmares and has some triggers. For example: Josue stated that he can
not be in an area where there is too much heat as this reminds him of when he was stuck
in a truck for 4 hours with 144 other individuals, Josue shared that during this time he had
3 other adolescent sitting on top of him and this he could not breath. Josue shared with
therapist that this is the first time he has spoken and shared his migration story. Bitth
mother is unaware of her son’s experiences. Josue and birth mother do not have a mother
;
son relationship as his mother left Josue when Josue was 4 months. Birth mother left

2>

A102
Josue to go work as an in-home house cleaner in another town when living in El
Salvador. Birth mother stated that she would return home every 2 month, only for the
weekend. However, she shared that she would spend her weekends selling table clothes
and did not spend quality time with her children as she would have liked too. Birth
mother acknowledges her mother to be Josue’s mother. Therefore, Josue does not have
that connection with his mother. Josue shared that when he arrived to NY and his mother
picked him up from the shelter, Josue did not recognize whom his mother was and felt
like he was taken to a home by a stranger.

fJosue. wiihbje able-to .speak about ins. fpigratiori.process- ^d^idfesicinltihoq^adyersei
jfi; ETSalYadoi^

; Active progress). • ?,

, <;

V'V: ?

:lbsueMlljhahn^|butfmuMt;lri.Mbgps)'
^o^e'iwj k:

-V *!'

>

|£

Vv v

bealtHy! coping^idilfv^ieh^tfi gieigd-in/hi s; e^jrb^^^ftprq|resS!j

;.

Risk Factors and Behaviors;
During first family session, Josue admitted to being non-compliant with grandmother’s !
rules and being his substance use since the age of 12. Josue states that he enjoys hanging
out with his friends. Josue states that they spoke and walk around their community.'' '.
As mentioned above, Josue struggles with following parental rules. Birth mother works at
night, and arrives home by 2am.Birth mother has shared at times Josue is not home when,
she arrives. Birth mother states Josue does not follow house rules. Josue’s whereabouts
and social connections are of a great concern as mother states there is a possible
suspicion of possible gang involvements or affiliations.
;
;

M

A103
Education:
Josue was placed on PINS Diversion via a school PINS for truancy. As of 12/5/16, Josue has 20
full truancy days and 12 partial truancy days. According to the PO, Josue attends school
regularly, and on days he misses the bus, his mother takes him to school. Josue's struggles
staying in class, and reports leaving school grounds by himself to walk around and at times walks
to the local McDonald's to get coffee.
Referral for LIAC was made, and family met with Eilleen Buckley. Josue is currently attending
both bi-lingual and SIFE classes. Before the beginning of 2016-2017 academic school years,
Josue reports taking a test, which placed him in a beginner, level ENL classes. He reports
attending summer school for Math and English and passed with the help of his friends. He
describes feeling bored in class, and has some trouble understanding the material. Josue feels
like if he is taught in Spanish he would not have any difficulties learning the material. Currently,
his school performance is poor, and he is failing some of his classes. During his time in El
Salvador, Josue attended school regularly and reports completing the 6th grade. Josue is also
struggling with acclimating to the United States life style. Josue has mixed feelings towards
education, Josue believes there are some benefits to his education but does not believe his
«
school environment is encouraging or supportive. Josue has no interest in school activities.
Josue states, There are no staff members at the school he feels closely too.

CANS score for school behavior has increased from a 0-2.
Josue has a long history of behavioral problems with school. Josue has expressed that he •
cuts classes, and surrounds himself with negative peers that get him into trouble. Josue ;
has been very honest with the CRP team and has Josue disclosed that he does not work
it'
well with certain staff members in Central Islip High School. Josue states that he also
feels singled out by specific staff. The CRP, and LIAC have been working very closely to
correct certain barriers that Josue was facing in school.
Prior to CRP case opening, the school has tried to reach out and communicate with birth
mother on a few occasions. Case manger was able to set up a team meeting for birth '
mother, and LIAC. Josue was not in attendance due to at the time being on OSS. Team
meeting held on 2/01/17. The school’s main concerns were Josue’s behavioral problems. ‘
According to the school, Josue surrounds himself with known gang members, and
negative peers in school. He is disruptive in the classroom, and shows a high level of
disrespect towards staff, especially an elderly aid that he made cry on a few occasions.
Josue has been found in the hallways on various occasions with out permission and runs
away from school staff and security.
Once CRP opened Josue’s case, Josue has made efforts to attend school and follow
school rules. In a short period, the school recognized Josue’s efforts and sent a post card
disclosing that he has improved in his attitude. However, Josue was still being targeted by
--------- ---------------------- :

!

€

:

• ' 1

• r »V;'

‘

A104
security. Throughout the meeting, case manager explained, that Josue is feeling
extremely targeted at the high school. He feels he is routinely stopped and questioned by.
security, and while he is making great efforts to change his behavior and attitude at
school, he feels his ability to do so is hindered by the school routinely singling him out or
accusing him of doing things in which he had no involvement. Due to Josue OSS that he
received on 1/31/17, birth mother also felt that Josue had been unfairly treated in school
and was upset how the school approached him. It was also mentioned at the team meeting .
the family had yet to receive a letter about Josue suspension and return date back to
school. Since the school failed to do this, with in a 24 hours period, and with the help •
from LIAC, Josue return to school and the OSS taken from his record. It was learned at
the team meeting that Josue was cleared of the accusations, was placed on OSS because
he run away from security that day.
Josue also stated that he is making an effort to change, however the school is constantly.
falsely accusing him. This is greatly effects Josue, since he states due to these false
accusations, he feels like he no longer wants to attended school. School did send a past
card in the mail that Josue had been improving his behaviors as of late, which made him
very happy.
Case manager further expressed Josue feelings of feeling bored in his classroom, and not
understanding why he has 1st period ISS. School explained that ISS was a informal way
for Josue to have one on one support with staff. Birth Mother also presented three options
for Josue education. One was to stay in SIFE which the school claimed now is credited
baring, Bi-lingual regular education, and BOCE night school. Birth mother and Josue .
decided to switch him into Bi-lingual regular education.
On 2/6/17, CM received a phone call from Mrs. Rio school worker. There was a missed ■+;
understanding with the school and Josue. The misunderstanding later was resolve and
Josue will not be facing any negative actions. .
:J^uc^dL>a<tend;.schqoLre^ul^^,progress, : f

Modules:
Behavior Health: Josue states that he does not follow parental rules and enjoys hanging •
out with his friends. As mentioned above Josue has has these same behaviors since hre'•
was living in El Salvador. Birth mother states his grandmother began to notice'Josue5 s
behavior change at the age of 12.
Substance use:
As mentioned above, Josue admitted to using substances since the age of 12. CRP.is still
getting to know Josue and his substance abuse history.

T

A105

wmmi
Behavioral Health: Josue continues to not follow parental rules and continues to sneek
out the house.
Trauma: As mentioned above, Josue has experienced trauma which he is currently .
working through in therapy.
Substance use: Therapist drug screened Josue on 2/2/17. Josue tested positive for
marijuana. Josue understand the harm and dangers to substance use and is willing to
decrease his drug use.

w .'. -T .■
i

hr

‘ i-M V.

.

.•

■' • •»

-■ ;■ ty.’,..-.A--* : t

1

<1;' >/- v
j

A106

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
Paul J. Lombardi RMR, FCRR
Official Court Reporter

A107
SEALED
2
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
Paul J. Lombardi, RMR, FCRR
Official Court Reporter

aeijodey 3.-11103 lblolj.J-0
yyod ‘ywy ‘ Lpjequio-| t Lned
9Z
PZ
ZZ
ZZ
IZ
OZ
61.
91.
Li
91.
91
PI
Zi
Zi
ii
01.
«♦*

6
8
L
9
S
P
Z
Z
l

z
a a i v 3 s

80IV

A109
SEALED
4

1
2
3
4
5
6
7
8
f

9
10
11
12
13
14
15
16
17
18

19
20
21
22
23
24
25
Paul J. Lombardi, RMR, FCRR
Official Court Reporter

A110
SEALED
5
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15

■

16
17
18
19
20
21
22
23
24
25
Paul J. 'Lombardi, RMR, FCRR
Official Court Reporter

Alll
SEALED
6

1
2
3
4
5
6
7
8
n*

*'

9
10

11
12
13
14
15
16
17
18

19
20
21
22
23
24
25
Paul J. Lombardi RMR,•FCRR
Official Court Reporter

A112
SEALED
7
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
Paul J. Lombardi, RMR, FCRR
Official Court Reporter

A113
1
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

1
2

X

3
UNITED STATES OF AMERICA,

CR-17-366
(JFB)
United States Courthouse
Central Islip, New York

4
5
6

-againstJOSUE PORTILLO

June 12, 2019
A TIME

Defendant.

7

X
8
TRANSCRIPT OF SENTENCING
BEFORE THE HONORABLE JOSEPH F. BIANCO
UNITED STATES DISTRICT COURT JUDGE

9
10
11

APPEARANCES:

12

For the Government:

RICHARD P. DONOGHUE, ESQ.
UNITED STATES ATTORNEY
BY: JOHN DURHAM, AUSA
PAUL SCOTTI, AUSA
JUSTINA GERACI, AUSA
100 Federal Plaza
Central Islip, New York 11722

For the Defendant:

JOSEPH RYAN, ESQ.

13
14
15
16
17
18
19
20
21

Official Court Reporter:
Ph. (631) 712-6106
Fax (631) 712-6122

Paul J. Lombardi, RMR, FCRR
100 Federal Plaza - Suite 1180
Central Islip, New York 11722

22
23
24
25

Proceedings recorded by mechanical stenography.
Transcript produced by CAT.
Paul J. Lombardi, RMR, FCRR
US District Court Reporter

A114

2
THE CLERK:

1
2

United States of America v Josue Portillo.
Counsel please state your appearances for the

3
4

Calling criminal case 17-CR-366

record.
MR. DURHAM:

5

John Durham, Paul Scotti, and

6

Justina Geraci for the United States.

7

Honor.

8

THE COURT:

9

MR. RYAN:

10

Good morning, your

Good morning.
Good morning, your Honor.

Joseph

Ryan for Mr. Portillo.

11

THE COURT:

Good morning.

12

Mr. Portillo is present.

We have the Spanish

13

interpreters, Ms. Gray and Mr. Hontoria, who both have

14

been sworn as interpreters.

We are here for sentencing.

15

Are both sides ready to proceed?

16

MR. DURHAM:

17

MR. RYAN:

18

THE COURT:

Yes, your Honor.
Yes, your Honor.
I'm just going to review what

19

documentation I have to make sure I have everything that

20

you have submitted and also that you have everything that

21

is before the court.
The court has, obviously, the presentence

22
23

report.

The court has the recommendation of life

24

imprisonment from the probation department.

25

the addendum filed by the probation department.

The court has
The court

PAUL J, LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A115

3
1

has the January 17 sentencing memo and attachments from

2

Mr. Ryan, including Dr. Goldsmith's report, the

3

defendant's letter and the community reinvestment program

4

documents.

5

The court has the February 25th defense counsel

6

letter, the March 8th defense counsel letter which

7

attaches letters of support from the defendant's family.

8

The court has the government's March 18 sentencing letter,

9

March 18 supplemental sentencing letter, the April 3 reply

10

letter from defense counsel, the April 22 government

11

response, the April 24 defense counsel letter, and the

12

second letter on that date.

13

I went back and reviewed the Dr. Goldsmith

14

hearing transcript from the court's hearing transferring

15

the defendant to adult status which I considered,

16

obviously in addition to the report,

17

reviewed the plea transcript and I believe that's all I

18

have in connection with the sentencing.

19

are other letters but in terms of the substantive letters

20

I believe that's all I have.

21
22

I went back and

Obviously there

Is there anything else the government wants to
bring to my attention?

23

MR. DURHAM:

24

THE COURT:

25

MR. RYAN:

No, your Honor.

Thank you.

Anything else from the defense?
No, your Honor.

Thank you.

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A116

4
1

THE COURT:

Mr. Ryan, have you and your client

2

received the presentence report, the recommendation and

3

the addendum?

4

MR. RYAN:

5

THE COURT:

6

Yes, your Honor.
Have you had sufficient time to

review it?

7

MR. RYAN:

8

THE COURT:

Yes, we have.
Mr. Portillo, I want to make sure

9

you had sufficient time to review the presentence report

10

the recommendation and the addendum and discuss it with

11

your attorney.

12

Have you had sufficient time to do those things?

13

THE DEFENDANT:

14

THE COURT:

15
16

Yes.

Does your client have any objections

to the report?
Obviously with the understanding that with

17

respect to the crimes themselves the court is sentencing

18

the defendant based upon the information contained in

19

document number 73, as well as obviously the statements he

20

made at his plea and to Dr. Goldsmith.

21
22
23
24
25

With that clarification, are there any
objections to the report, Mr. Ryan?
MR. RYAN:

No, your Honor, except for the

recommendation.
THE COURT:

Obviously I understand that and

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A117

5

1

we'll talk about that.

2
3

Does the government have any objections to the
report?

4

MR. DURHAM:

5

THE COURT:

6
7

No, your Honor.
I adopt the information contained in

the presentence report as factual findings by the court.
With respect to the guidelines calculation, the

8

report calculates the guidelines to be a level 43.

9

defendant has a criminal history category I with an

The

10

advisory range of life imprisonment before any departures.

11

Obviously Mr. Ryan has made a motion for a downward

12

departure based upon the defendant's age and also argues

13

for a nonguidelines sentence under the 3553(a) factors.

14

But prior to any such departure do both sides

15

agree that's the proper calculation of the range?

16

MR. DURHAM:

Yes, your Honor.

17

MR. RYAN:

18

THE COURT:

19

I adopt the calculation as contained in the

Yes, your Honor.
I agree as well.

20

presentence report.

Just by way of summary it's a base

21

offense level 43.

22

aiding and abetting, the murder of four individuals, under

23

the grouping analysis his offense level increases by four

24

to a level 47.

25

guilty in a timely fashion.

Because the defendant pled guilty to

He did accept responsibility by pleading
He is entitled to a

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A118

6
1

three-level reduction for that, which brings him to 44.

2

The highest level is 43, so his total offense level

3

becomes a 43.
He has no criminal history points and,

4
5

therefore, is a criminal history category I.

6

advisory range is life before any departures.

7

as I noted pursuant to United States v Booker and its

8

progeny the guidelines are only advisory.

9

one factor the court is to consider among all the

10

So the
Obviously

They are only

statutory factors.
I’ll now hear from each side regarding the

11
12

downward departure motion by Mr. Ryan as well as all the

13

3553(a) factors and anything either side wishes to say in

14

connection with the sentencing and I'll start with

15

Mr, Ryan.

16

Go ahead, Mr. Ryan.

17

MR. RYAN:

18

Your Honor's decision today is going to

Thank you, your Honor.

19

determine whether or not this young man is going to have

20

the chance of being rehabilitated in our federal prison

21

system to become a reformed person,

22

with a heinous crime he committed at 15 years of age.

23

life expectancy is 75.

24

segments you have five stages of his life.

25

We are dealing here

So you break it down by 15-year

He committed the heinous crime at 15.

The

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

His

A119

7
1

question is what should this court do with the balance,

2

the other four quarters of his life?

3

government you should extinguish his ability to become

4

free, and he should die in prison.

5

do for what he did at 15.

6

According to the

That's what he should

It's also undisputed by courts and neuroscience

7

studies that when he committed this crime at 15 he did not

8

have an adult brain.

9

been fully physiologically developed.

He had a juvenile brain and hadn't
The Supreme Court

10

tells us that a person at that age, with that infirmity,

11

is influenced by his peers, doesn't think about

12

consequences, acts impetuously.

13

of age a man who was dealt a bad hand at birth, no father,

14

never showed up.

15

those three years she worked as a maid in another town and

16

hardly spent any time with him on weekends.

17

So you have at 15 years

His mother left him at three and during

She left him with a 68 year old grandmother, and

18

with all due respect to your Honor's findings on the

19

transfer hearing, that was not an environment that was a

20

stable, loving environment that he would have had if he

21

had his father and mother rearing him and guiding him and

22

disciplining him.

23

raised one family, and now she was burdened with him and

24

it became perfectly obvious that when he was in

25

El Salvador she could not control him.

She was 68 years old.

She already

He's smoking

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A120

8
1

marijuana at 12 and all he wants to do is play soccer.
So eventually it came to the time when he was 14

2
3

years of age she threw her hands up.

She called his

4

mother, who is now in the United States in Central Islip

5

with a new family, and together they decide that he should

6

be smuggled into the United States.

7

into the United States when he was in a trailer packed

8

with others on the bottom of a pack of human bodies, but

9

he survived.

He almost died coming

And when he got to McAllen, Texas he was

10
11

welcomed by the border patrol.

12

mother's name and telephone number.

13

cal 1 .

14

up with his mother,

15

beautiful little girl as a result of her new union with

16

another family.

17

because that's understandable.

18

since she left at three years of age and he hardly saw her

19

between birth and three years of age.

20

All they wanted were his
His mother got the

The arrangements were made and eventually he wound
His mother has a whole new family,

Told Dr. Goldsmith that it felt weird
He hadn't seen his mother

So he found himself in Central Islip with a

21

mother who has a new family, works nights, and when he

22

began eighth grade in school he did fairly well for a new

23

arrival in Central Islip.

24

brain he looked for some relief and MS-13 offered him that

25

kind of relief.

For a juvenile without an adult

There were girls.

There was soccer.

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A121

9
1

Apparently he's a good soccer player, marijuana, which he

2

had been smoking since 12.

3

And this became his world.

We work in courthouses and courtrooms.

He

4

worked with MS-13 as a juvenile without an adult brain,

5

and it was a great outlet for him.

6

Don't go to class.

7

Antagonizes school officials, which is predictable

8

according to all the experts that if you have a parentless

9

teenager, he's going to be in trouble.

10

Cut classes.

Forget about school.
Forget about grades.

No guidance, no

1 ove.

11

MS-13 has a price to pay.

If you get on the

12

ship and am a member of its crew, when it leaves the dock

13

you are going nowhere else.

14

are told.

15

that there were some 18th Street youths who were, in

16

effect, threatening him not to become a member of MS-13

17

and he reported it.

18

year old reporting to a 20 year old codefendant in this

19

courtroom, whose nickname is Antichristo.

20

You are going to do as you

And he shared with the leaders of the MS-13

He reported it to a 20 year old, a 15

Antichristo's going to fix this problem, because

21

we don't make money in MS-13 when we have dominance and

22

control we get respect,

23

conform with the way we think.

24

a threat to MS-13

25

what you are supposed to do when you are a new member of a

We can kill people if they don't
That's what they consider

and he does what he's told.

That's

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A122

10
1

gang.

2

government says he planned it.

3

A ninth grader is not going to tell a 20 year old how to

4

commit a murder.

5

You carry out tasks, and he carried out tasks.

The

He was a mastermind.

No.

And then the night came and he's with his group

6

and the Supreme Court tells us peer pressure, peer

7

influence is the dominant force on a juvenile brain.

8

don't listen to common sense or any other reliable source.

9

It's what their world is, and their influence in the peers

10

and he's going to do what all the other juveniles do when

11

they came to that horrible dark night.

12

that night when he's 75, if he should live so long.

13

They

He will remember

He was the first one to plead guilty in this

14

case, and as far as I can see he was the first one that

15

fully confessed,

16

detention center in Virginia he didn't hold back.

17

didn't deny it.

18

years he's been housed in the Suffolk County juvenile

19

center with no programs, nothing.

When the FBI agent confronted him in the
He

He realizes it, and for the last two

20

He's met with Dr. Goldsmith and with an

21

interpreter on many occasions, and he's had plenty of time

22

to think about this.

23

upon more than a dozen jail visits, that he's a person of

24

a passive personality.

25

remorseful.

And my own observation is, based

He's not an aggressor, and he is

He may not know how to express it as a

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A123
n
1

juvenile to Dr. Goldsmith, and the one problem I have with

2

Dr. Goldsmith is that he praises the grandmother as the

3

one who gave him rules and discipline.

4

show that that wasn't working.

5

might have been rules without love, but she got to the

6

point where she had to call the mother.

Her own actions

There was no love.

There

So he came to this country through no choice of

7
8

his own.

This was a plan devised by his mother and his

9

grandmother.

And if it is anyplace he wants to go from

10

this courtroom or for the federal Bureau of Prisons it's

11

back to his home country, El Salvador,

12

there and by the time he's released, perhaps he will have

13

a family that welcomes him.

14

He wants to become an adult that can perform a positive

15

function for himself and for others.

16

He has a sister

He wants to learn a skill.

So we are here to ask for a second chance.

Your

There is no judge in this

17

Honor's an expert in MS-13,

18

country that knows more about how it operates from all the

19

trial experience you have had.

20

that doesn't excuse his conduct and he doesn't intend it

21

justifies his conduct.

22

demonstrate to your Honor that you can be proud of him

23

whenever he gets out and is sent back to El Salvador.

He was swept away, but

What he intends to do is

24

Thank you, very much.

25

THE COURT:

Thank you, Mr. Ryan.

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A124

12
Mr. Portillo, you also have the right to speak

1

I have read your letter, but

2

today at your sentencing,

3

you also have the right to speak today.

4

seated and say anything you wish to say to the court

5

before you are sentenced.
THE DEFENDANT:

6

You can remain

Honorable Judge Bianco, I expect

7

a severe sentence because as an MS-13 member what I did to

8

Michael Lopez and to others, but please do not put me in

9

jail for the rest of my life.
I know that what I have done was very wrong.

10
11

apologize for my heinous crime and will always pray for

12

the families of these victims, none of whom deserved to

13

die.

14

to prove to your Honor and the victims' families that I

15

can be a different person than I was at 15.

16

make you proud.

I

I respectfully pray that I be given a second chance

I pledge to

I now realize how selfish it was for me to be

17
18

consumed by soccer, girls and marijuana offered by the

19

MS-13.

20

enable me to help others after my deportation to

21

El Salvador.

22

a law-abiding person helping others,

23

confidence that your Honor appreciates my personal

24

circumstances at 15.

25

Thank you.

I will learn a trade or skill in prison that will

I will prove to your Honor that I can become
I have every

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A125

13
1

THE COURT:

Mr. Portillo, before I hear from the

2

government let me just say in response to what you just

3

said to the court, and Mr. Ryan noted this, obviously once

4

you were arrested you did confess.

5

responsibility.

6

transferred you to adult status and obviously you

7

expressed your remorse today.

8
9

You accepted

You pled immediately after the court

So I want you to understand that I am
considering that.

That is important to me, and obviously

10

I'm considering the age when you committed the crime, one

11

of the things that Mr. Ryan has ably pointed out in his

12

letters and today.

13

made reference to it, that, notwithstanding that remorse

14

and that acceptance of responsibility, the court has to

15

consider a lot of other factors including the harm that

16

you caused.

17

have no chance

18

about in your life.

You also obviously understand, you

There are four individuals who are. dead who
no stages of life that Mr. Ryan talked

19

So the court has to consider the harm you have

20

caused and the other factors under the law, but I do not

21

intend to impose a life sentence and one of the reasons

22

I'm not imposing a life sentence is your acceptance of

23

responsibility, your remorse and your age at the time of

24

the offense.

25

from the government.

But before I impose the sentence I'll hear

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A126

14
First, under the victims' rights act are there

1.
2

victims who want to speak before you speak, Mr. Durham?
MR. DURHAM:

3

Yes, your Honor.

There are a

4

number of victims' family members here today and my

5

understanding is only one of them would like to address

6

the court, and her name is Lourdes, L-O-U-R-D-E-S,

7

Banegas, B-A-N-E-G-A-S, Michael Lopez's mother.
With the court's permission I will use one of

8
9

the Spanish interpreters so she can address the court.

10

THE COURT:

11

Ms. Banegas, you can address the court here.

12

MS. BANEGAS:

13

Yes.

I am Michael's mother, Michael

Banegas.
I came to this country 20 years ago.

14

I have two

15

children who are citizens.

I had another two born in

16

Honduras.

17

my children in this country honestly, like Michael's

18

family has always done, Portillo took away this dream.

When I came to this country I had a dream, have

He took away the strongest child, the best for

19
20

my heart and he doesn't know the harm inflicted on myself

21

and my family.

22

Portillo arrived and he destroyed everything, everything.

23

Because today we are not the same.

24

happy.

25

therapy, have to take medications when I never had to do

Two years ago we were a happy family.

My husband is not the same.

My children are not
I receive monthly

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A127

15
1

that before.

2

Portillo's lawyer says that he has five stages

3

in his life, and now I'm asking him where are the stages

4

of my son?

5

doesn't know the harm that he inflicted upon us.

6

dreams are gone.

7

Portillo killed my son.

8

done

Portillo took them away from him.

Portillo
My

My dreams were gone the night that
I don't know if justice will be

but there is a God that will do that by himself.

9

Thank you.

10

THE COURT:

11

I just want to say to you first of all I want to

Thank you, Ms. Banegas.

12

express my deepest condolences to you, your family, and

13

all the victims' families here for the loss of your loved

14

ones.

15

that you are going through is unimaginable to me and I

16

fully understand what you have expressed to the court

17

today.

18

As a father of six children the emotional suffering

I also want to commend you, not just for being

19

here, but for getting up and making that statement.

20

That's a very difficult thing to do and I know there are

21

other victims' families here and I have gotten their

22

statements through the probation department.

23

expresses their grief in a different way, but whatever

24

form it's in it's important to me to hear from you, for

25

everybody to hear from you, for Mr. Portillo to hear from

Everybody

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A128

16
1

you so that we remember your son Michael and that we

2

understand, to the best that we can, the ongoing, lifelong

3

emotional suffering that you and your family are enduring

4

as a result of this heinous crime.

5

I want to assure you that the sentence I will

6

impose today I can't bring your son Michael back or any of

7

the other people that were killed that night, but I can

8

assure you I have given this sentence a lot of thought,

9

hours and hours, and my hope is in balancing all the

10

factors that I am required to under the law that this

11

sentence is a just sentence that adequately reflects the

12

loss of your son's life, the loss of the life of those

13

other young men that day and the pain that you and your

14

family and all the loved ones are going to have for the

15

rest of their life.

16
17

So thank you, again, for your statement and for
being here today.

18

MS BANEGAS:

Thank you.

19

THE COURT:

20

Go ahead, Mr. Durham.

21

MR. DURHAM:

22

I know I have said this to the court before, but

I'll now hear from the government.

Thank you, your Honor.

23

any time you get up to speak following a victim's mother

24

or father pretty much anything that I have to say pales in

25

comparison.

We worked these cases for years.

We deal

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A129

17
1

with dozens of murders and at some point you start to

2

become numb to it all, and when you come into court and

3

you listen to victims' family members speak about the loss

4

that they have suffered it's incredibly powerful.
That impact that Ms. Banegas just described in

5
6

this case, it's quadruple.

There are three other families

7

going through that same grief, suffering those same things

8

and as the court noted they have expressed those feelings

9

in letters to the court.

Each one of those families,

10

their lives will never ever be the same, birthdays,

11

holidays, everything is different.

12

of the actions of this defendant and his fellow MS-13

13

members.

It's different because

As the court had said, the advisory guideline

14
15

sentence here is life but there are other factors the

16

court must consider, both from Congress, Section 3553(a),

17

as well as the Supreme Court in the Miller case because of

18

this defendant's age at the time of the offense.

19

even in light of his age and in light of those factors,

20

the government is recommending a sentence of 60 years.

21

That's an extremely severe sentence.

22

lightly.

23

the offense, the need for deterrence and the need to

24

protect society from further crimes from this defendant.

25

However,

We don't do that

We do that in recognition of the seriousness of

There's been extensive briefing in the case.
PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

I

A130

18
1

know the court is familiar with the facts so I won't

2

belabor those points, but just to sum it up, this is an

3

extremely, extremely serious murder.

4

serious but here not only are there four murder victims,

5

but the nature of this murder, which was planned weeks if

6

not months in advance, in a cold-blooded calculated way

7

where the victims were lured out into the woods by two

8

young women with a promise of smoking weed, perhaps more,

9

five victims were lured out and this defendant and over a

Every murder is

10

dozen other MS-13 members conspired to kill them.

11

They surrounded the victims.

They were armed

12

with machetes, knives, tree branches, even an ax, and they

13

surrounded the victims, one of them immediately ran away

14

and escaped, but the other four were not so lucky.

15

were captured and then they were slowly executed.

16

were stabbed, hacked, chopped, beaten to death in the most

17

excruciating and painful way.

18

Section 3553(a), this is an extremely serious offense.

19

Offenses in the court don't get much more serious.

20

nature of the circumstances definitely weigh in favor of

21

the 60-year sentence.

22

They
They

So when the court considers

Now, the defendant was 15 years old.

The

He does

23

not have a prior criminal history of significance, but the

24

court can also look at his background, both here and in

25

El Salvador.

At a very young age he began to demonstrate

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A131

19
1

antisocial behavior.

He began to associate with the MS-13

2

in El Salvador, and unlike many defendants who come before

3

this court, this defendant had a loving and supportive

4

fami1y.

5

report.

That is abundantly clear from Dr. Goldsmith's

He had a grandmother who loved him and attempted

6

When that didn't work she

7

to raise him as best she could.

8

had the defendant come to this country to join his mother

9

and his mother, while she may have immigrated to the

10

United States and she remarried and had a family here, she

11

made extensive efforts to integrate this defendant into

12

that family, as did the stepfather, her boyfriend.
However, the defendant was not receptive to

13
14

those efforts, and immediately upon his arrival in this

15

country he began getting in trouble in the school.

16

repeatedly suspended.

17

teachers.

18

importantly, he immediately reassociated himself with the

19

MS-13.

He was

He was disrespectful to his

He began smoking marijuana and, most

In light of those factors this court needs to

20
21

sentence this defendant to deter him specifically from

22

further criminal conduct but also other members of the

23

MS-13.

24

that you can commit these types of crimes, serve your

25

sentence and get out and enjoy those other stages of life

A reduced sentence would send the wrong message

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A132

20
1
2

which have been deprived for each of the victims.
I was at an event earlier this week and somebody

3

quoted John Adams and they said facts are strange things.

4

I think that's really, really applicable when I was

5

listening to Mr. Ryan speak.

6

that the government and the defense disagree upon.

7

might disagree about what arguments or inferences should

8

be made from those facts

9

dispute here.

10

There are very few facts
We

but the core facts are not in

There is no dispute that the defendant had

11

family members who attempted to care for him.

12

dispute that he was involved in the MS-13 in El Salvador,

13

and continued to associate with the MS-13 here.

14

no dispute that beginning Of when this crime began, when

15

this defendant had an altercation at a 7-Eleven with one

16

of the intended targets of the murder plot.

17

dispute that after that happened this defendant brought

18

that dispute to the MS-13.

19

Antichristo into this conspiracy.

20

brought Discreto, Manicomo, into this conspiracy.

21

while he is young in age, he played a significant role in

22

this murder.

23

There is no

There's

There is no

He's the one who brought
He's the one who
So

There's also no dispute that leading up to this

24

murder in the weeks and months there were numerous

25

conversations, there were meetings where the plan was
PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A133

21
1

discussed.

The defendant was present for those meetings.

2

The defendant was the ope on the night of the murders who

3

was in contact with the two females, regular contact to

4

coordinate luring the victims into the woods, and this is

5

important, on the night of the murders, the defendant was

6

the one who called the leaders of the Leeward clique to

7

get permission to carry out these murders.

8

Antichristo was there.

Mr. Ryan would like to

9

defer a lot of the blame on Antichristo and Antichristo is

10

going to come before this court some day if and when he's

11

convicted and the court can render sentence on him, but

12

Antichristo belongs to another clique,

13

defendant who reached out and spoke to the leaders of his

14

clique and obtained permission to carry out these murders.

15

Once he had permission, this defendant continued

So it was this

16

to coordinate the attack with the two females.

17

determined the victims' exact location and time of arrival

18

and once they arrived he participated in the attack,

19

striking victims with a machete.

20

facts, your Honor, and there are three important things

21

that these facts show.

22
23
24
25

He

These are undisputed

One, they demonstrate the significant role that
this defendant played in the murders.
Two, it undermines Mr. Ryan's argument about
immaturity or impetuousness.

These murders were carefully

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A134

22
1

planned.

2

involved in every stage of the plan.

They were cold-blooded and this defendant was

And last, your Honor, these facts demand a

3
4

significant sentence.

5

imprisonment.

They demand a sentence of 60 years

6

Thank you.

7

THE COURT:

8

I'll now describe the sentence I intend to

9

Thank you, Mr. Durham.

impose and give the attorneys a final opportunity to make

10

any legal objections before the sentence is finally

11

imposed.

12

considered, as I am required to, the factors set forth by

13

Congress in Section 3553(a).

14

others, I'll not mention all of them although I am

15

considering all of them, the nature and the circumstances

16

of these murders.

17

characteristics of Mr. Portillo.

18

for the sentence that the court imposes today to provide a

19

just -- reflect the seriousness of the offense, to promote

20

respect for the law and to provide a just punishment for

21

the offense.

22

criminal conduct.

23

further crimes by this defendant.

24
25

In imposing the sentence I have carefully

These factors include, among

They include the history and the
They include the need

I also need to afford adequate deterrence to
I also need to protect the public from

I have also considered the advisory sentencing
guidelines issued by the Sentencing Commission and the
PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A135

23
1

advisory range iri this case which we have discussed, as

2

well as the applicable policy statements issued by the

3

Sentencing Commission.

4

avoid unwarranted sentencing disparities among

5

similarly-situated defendants.

6

I have also considered the need to

This court personally has sentenced many, many

7

defendants for murders in connection with the MS-13 gang.

8

I am aware of other sentences that other judges have

9

imposed in similar circumstances, and I have sentenced

10

juveniles for such crimes and I asked the government to

11

submit a chart to me providing the court with as much

12

information as possible regarding cases across the country

13

where other judges have sentenced juveniles for one or

14

more murders, including their age, and I have reviewed

15

that chart as well, as well as Mr. Ryan's information.

16
17
18

I also need to consider restitution to the
victims' family which I will address in a moment.
Having considered the various 3553(a) factors,

19

those factors and all the factors, as well as the factors

20

set forth by the Supreme Court in Miller v Alabama, I find

21

in the exercise of my discretion that a sentence of 55

22

years, 660 months imprisonment, is warranted in this case.

23

I will describe to you how I arrived at that sentence.

24

I noted to Ms. Banegas, the court has spent many, many

25

hours thinking about this sentence, and this is how I
PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

As

A136

24
1

arrived at that sentence.

2

First, this sentence of 55 years is necessary to

3

reflect the unbelievably violent nature of this crime and

4

the extreme harm that it caused.

5

participated in what is clearly a brutal execution style

6

murder of four young men for no reason.

7

for no reason.

8

devastating and the senseless act of evil of the loss of

9

four lives and, as I noted, the emotional lifelong

This defendant

I emphasize that

And the sentence has to reflect the

10

suffering that all of the loved ones of these four young

11

men continue to experience and will experience for the

12

rest of their lives.
The sentence has to also reflect the danger

13
14

represented by this defendant, willingness of an

15

individual, even at 15 years old and I'll address that

16

more in a moment, to engage in this level of violence in a

17

premeditated way is hard for anyone to fathom.

18

play a pivotal role in those murders.

19

what Mr. Ryan said -- and Mr. Ryan's done an excellent job

20

in the case in advocating for his client -- but I

21

disagree.

22

the decision of the court is to determine whether or not

23

Mr. Portillo was a follower or a leader.

24

is something that the court considers.

25

He did

I disagree with

I think at the prior conference Mr. Ryan said

Certainly that

But that's not the only consideration.

He's

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A137

25
He did not supervise these murders.

1

clearly not a leader.

2

So I agree with you to that extent,

3

is not a leader, who plays a key role is highly culpable

4

in those murders, even when they are not a leader and

5

there is no question that he played a key role in the

6

prompting, in the planning and in the execution of this

7

quadruple homicide, and that requires a sentence of this

8

magnitude.

But even someone who

As Mr. Durham noted I'll briefly list these

9
10

facts, which again are not disputed, based upon the April

11

24th letter from Mr. Ryan, the statements the defendant

12

made to Dr. Goldsmith and made to me at the time of his

13

pi ea.

14

of the victims at the 7-Eleven way back in June of 2016

15

that began the dispute.

16

at page 31, Dr. Goldsmith’s testimony eventually after

17

this was researched and the photo of one of the victims

18

was obtained from Facebook, it was this defendant who

19

brought the issue to the attention of the gang for action.

20

That's page 32 and 33 of Dr. Goldsmith's transcript, page

21

seven of his report and some of other documents as well.

22

I'm giving some citations,

23

It was he who had the verbal altercation with one

This was also in the transcript

He then participated in the meeting at the park
This defendant

24

where he and the MS-13 members planned it.

25

then spoke to the two females regarding what their roles
PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A138

26
1

would be in luring the victims.

2

at Clayton Park and I understand others met with them as

3

well.

4

in their involvement.

5

with the leader of his clique, the Leeward clique,

6

immediately prior to the murders to get approval for the

7

murders to take place.

It wasn't exclusively him, but he played a key role
He then arranged the three-way call

So he was integrally involved in bringing this

8
9

He met with one of them

to the gang and then planning the carrying out of these

10

murders.

At the time of the murders, as Mr. Durham noted,

11

it was this defendant who communicated by text with the

12

female coconspirators to find out where they were as they

13

were luring the victims and then convey that to the gang

14

members who were waiting to carry out the murder of these

15

four individuals.

16

the murder by brutally stabbing Michael Lopez,

17

same time the other gang members were killing the other

18

victims.

Obviously the defendant participated in
At the

19

The seriousness of this criminal conduct and the

20

danger that it poses on the community have to be reflected

21

in the sentence.

22

that it was committed in connection with the activities of

23

the MS-13, a violent street gang that represents a clear

24

and compelling danger to the community.

25

horrific murders committed in parks in the communities

It is clearly exacerbated by the fact

These types of

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A139

27

x

1

obviously present a danger to everyone who lives in those

2

communities because if the MS-13, for whatever reason,

3

decides that you disrespected them, you pose some threat

4

to them, in their mind they will kill you.

5

This court has seen approximately 50 murders on

6

Long Island committed by the MS-13 gang over the past ten

7

years.

8

gang is and how dangerous individuals who choose to join

9

this gang, including juveniles, the danger those

10

individuals, including juveniles, present to the

11

community.

12

There is no clearer evidence of how dangerous this

I also believe that this sentence is necessary

13

as a general deterrent to others who right now are in the

14

MS-13 gang and might think about joining the gang as a

15

juvenile in high school or at any other age to send a

16

message to them that if they participate in these types of

17

acts of violence they will spend the rest of their life,

18

or close to the rest of their life, in jail.

19

I don't believe Mr. Ryan argued in one of his

20

submissions that even though this court has imposed life

21

sentences on juveniles previously and these types of

22

murders continue, that somehow there is no general

23

deterrence effect on juveniles because they don't think

24

clearly enough to consider that,

25

that there have been additional murders should suggest to

I don't believe the fact

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A140

28
1

the court that there is no general deterrent value to long

2

sentences in terms of impacting gang members generally, as

3

well as juveniles.
I emphasize my sentence would be the same even

4
5

apart from this issue of general deterrence because I

6

think the other factors warrant a 55-year sentence

7

independent of that but I refuse to believe this has no

8

general deterrent effect.

9

sentence.

These would warrant a life

I have sentenced other juveniles to life, but I

10

believe there are sufficient factors that warrant a

11

sentence slightly below life at 55 years.

12

I think the government's recommendation of 60

13

years is slightly higher than the court thinks is

14

warranted for these reasons:

15

First, he committed the crime at age 15 and 11
Mr. Ryan

16

months which is obviously a very young age.

17

asked me to downwardly depart under the advisory

18

guidelines under 5H1.1 and I am doing that in a modest

19

fashion for reasons I'll explain in a moment but I want

20

the record to be clear this does reflect a downward

21

departure on the advisory system.

22

I also want the record to be clear that my

23

sentence would be the same independent of whatever the

24

guidelines are, the sentence would be the same under the

25

3553(a) factors, but in light of his age, his acceptance
PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A141

29
1

of responsibility, his quick plea of guilty that spared

2

the resources and the trauma to the victims' family of a

3

trial, his expression of remorse, as well as the

4

information contained in defense counsel's letter on

5

February 25, for all those reasons I believe that a

6

sentence less than life is appropriate in this case,

7

notwithstanding the probation department's recommendation.

8

Obviously I know I have the discretion to give

9

him less than 55 years, and I have considered whether or

10

not he should get less than 55 years in light of his age

11

and the other factors I pointed to and I went back and

12

read the Miller decision again a few days ago because the

13

Supreme Court, as Mr. Ryan noted, did emphasize in that

14

opinion that a court -- that a juvenile's brain is

15

different.

16

that's clear.

17

Obviously I accept that science.

I think

And that the Court should consider, among other

18

factors, the defendant's chronological age and

19

characteristics, including any immaturity, impetuosity,

20

and failure to appreciate the risks and consequences.

21

court should consider the family and home environment that

22

surrounded the defendant.

23

circumstances of the offense including the extent of the

24

defendant’s participation and the conduct and the way

25

familial and peer pressures may have affected him and the

The

The court should consider the

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A142

30
1
2

possibility of rehabilitation.
The court also noted, although there is no

3

evidence that this existed in this particular case whether

4

his youthful age affected his ability to negotiate with

5

the officers and be able to assist his own attorney.

6

Looking at all the other factors, I don't

7

believe in my discretion that they warrant a sentence of

8

less than 55 years.

9

different and Dr. Goldsmith concluded this defendant is

Although a 15 year old's brain is

10

immature and his marijuana use compounded his lack of

11

judgment, I don't believe that they explained the

12

defendant's conduct in this case.

13

his age, which was just under 16, or his immaturity was

14

the driving issue in this case.

I don't believe that

15

First of all, I want to note, as Mr. Ryan noted

16

he came here as an unaccompanied teenager which certainly

17

required a level of maturity.

18

lived a sheltered life unaware of the MS-13 gang or has no

19

ability to function independently.

20

familiar with the gang in El Salvador.

21

gang was about.

22

noted, under very difficult circumstances.

23

period of time to get to the United States, something most

24

teenagers would never experience.

25

experience and his experience with the gang in El Salvador

This is not a defendant who

He is someone who was
He knew what the

He came here in a very, as Mr. Ryan
It took a long

But I believe that that

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A143

31
1

made him more aware than the normal teenager of exactly

2

what he was getting into.
More importantly as relates to his age, as

3
4

Mr. Durham noted this was not an impulsive act.

This is

5

not a teenager who was confronted with an evolving

6

situation that happened on a moment's notice and had to

7

make a quick decision about whether to participate or not.

8

This was something that developed in advance.

9

participated in discussions about how it would be done.

He

As I noted he was active in every part of those

10
11

discussions, although not a leader.

He had a continuous

12

role.

13

don't believe his age or immaturity or marijuana use can

14

explain his decision, notwithstanding the time to think

15

about it, to participate in these murders.

16

Dr. Goldsmith noted, there is no sign of mental illness.

17

There is no sign of any intellectual limitations of this

18

defendant.

19

related factors warrant a sentence below the 55 years.

This was a premeditated cold-blooded murder and I

As

I don't believe that his age or other age

I don't believe any normal peer pressure that's

20
21

associated with that age or circumstances surrounding this

22

defendant explain his conduct.

23

within months of arriving here, knowing what the gang was

24

all about.

There was no indication in the record of any

25

pressure.

His cousin obviously was involved in the gang,

He joined the gang quickly

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A144

32
1

but there was no indication that someone forced him to be

2

in the gang.

3

Dr. Goldsmith on page five, he wanted respect,

4

it would give him friends, marijuana, and girls,

5

participated in the murders he said because he wanted to

6

be promoted by participating in the murders.

7

He did it because, as he said to
He thought
And he

So there is no indication of any pressure that

8

was put on him to join the gang or to participate in these

9

murders and I don't believe that explains his decision.

10

Although there's been back and forth about his family and

11

home environment, again, as I noted in the transfer

12

opinion there was no abuse, either here or in El Salvador,

13

and obviously the situation regarding the grandmother was

14

not an ideal situation, nor the situation when he arrived

15

here, but I don't believe that that supervision or lack of

16

supervision explains his decisions.

17

Finally, on efforts of rehabilitation and

18

likelihood of those efforts, the records showed that there

19

were efforts in the school through the community

20

reinvestment program to try to get him to disassociate

21

himself with the gang and they were unsuccessful,

22

mean to suggest by noting that that means he could never

23

change or turn his life around.

24
25

I don't

I don't believe that.

But I believe that that factor, even assuming
that at some point that he would be or would no longer be
PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A145

33
1

a threat to society, I don't believe that that factor

2

alone is sufficient to justify a sentence and I don't know

3

when that point would be, it's unclear,

4

Mr. Ryan noted he's had no programs in the jail.

5

currently poses a danger to the community and a long-term

6

danger to the community.

Obviously as
To me he

But even assuming that that would dissipate over

7
8

some time prior to the 55 years, I believe the other

9

factors that I pointed to warrant this sentence in any

10

event.

11

this case are outweighed by the other factors that I have

12

pointed to.

13

reflecting again that at some point I believe at an

14

advanced age he would pose a danger to the community and

15

because of his acceptance of responsibility I'm trying to

16

fashion this 55-year sentence given the possibility of not

17

dying in jail, having some period of what Mr. Ryan

18

referred to as his last stage of life, to have the hope,

19

although not the certainty, of not dying in jail.

20

I don't believe the Miller factors are strong in

But what I am trying to do by this sentence,

And I believe the 55-year sentence is sufficient

21

to do that, but I believe any lower sentence would not

22

adequately account for all the other factors I stated

23

which is the seriousness of the offense, the loss of life,

24

the need to promote respect for the law and to provide

25

deterrence, including general deterrence.
PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A146

34
1

Finally, I would note with respect to avoid

2

unwarranted sentencing disparities, I don't believe this

3

is a disparate sentence.
First of all, based on my own sentences this is

4
5

not disparate from what I imposed previously.

A number of

6

years ago I did impose life sentences on juveniles for the

7

murder of a 19 year old woman, Ms. Argueta and her two

8

year old son, arid the two who received life were 17, one

9

had just turned 17, Mr. Garcia, and Mr. Mejia, who was 16

10

years old at the time of his participation in that double

11

homicide I gave 45 years because he had a number of the

12

same factors here that Mr. Portillo has that persuaded me

13

based upon his age and those other factors that he

14

shouldn't receive a life sentence.
I believe Mr. Portillo is more culpable than

15

We have four individuals here who are dead and

16

Mr. Mejia.

17

I believe that this is proportional to Other sentences I

18

have imposed and if you look at the government's chart

19

it's certainly within the range of other sentences other

20

courts have imposed for murders or multiple murders,

21

although there were very few that are of this level of

22

violence in this chart.

23

In any event, even if it were not proportional,

24

again, I believe the other factors warrant this sentence

25

for the reasons I have indicated.

I believe this sentence

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A147

35
1

is sufficient but is no greater than is necessary to

2

balance all of the factors.

3

sentence.

4

That's how I reached this

The final thing I'll say is the court obviously

5

is aware of the Tapia decision by the court, T-A-P-I-A,

6

which says that you can't use imprisonment as a way to

7

achieve rehabilitation and prolong the sentence,

8

to make clear although the Miller decision makes reference

9

to rehabilitation and I made reference to rehabilitation

I want

10

and the parties have, that the court is aware of that

11

decision and I am not doing that in this case.
This is not an effort to give Mr. Portillo

12
13

rehabilitation in jail.

14

sentence.

15

harm and protect the public from harm from him and his

16

dangerousness and from general deterrence.

17

That is not the point of this

The point of this sentence is to reflect the

Is the government seeking supervised release

18

given that he will be deported and how many years he will

19

be in jail?

20
21

MR. DURHAM:

Your Honor, we would request it in

the unlikely event he's not deported.

22

THE COURT:

23

I'm going to impose -- you want to speak to that

24
25

Okay.

issue, Mr. Ryan?
MR. RYAN:

No.

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A148

36
I expect that he will be deported once he's

1
2

completed his sentence.
THE COURT:

3

I fully expect that, but we are

4

talking about a long time down the road and in the

5

unlikely event that he is not deported for some reason I

6

am going to impose three years of supervised release.

7

I understand the guidelines suggest this is

8

unnecessary but we obviously have a crime here of the

9

utmost seriousness and certainly if for whatever reason he

10

remains in the United States for a day after he serves

11

this sentence he should be under supervision to ensure

12

that he does not return to any type of illegal activity.

13

And also even, if he is deported, it will also

14

operate as an additional incentive for him not to try to

15

return to the United States because, in addition to it

16

being a crime, it will be a violation of supervised

17

release.

18

release with the standard conditions, the mandatory

19

conditions, and the one special condition that if he is

20

deported he will not illegally reenter the United States.

21

j

I'm going to impose three years of supervised

With respect to restitution, the addendum says

22

the government is seeking the victims' families for

23

funeral expenses, a total of $24,108 in restitution.

24

that still accurate?

25

MR. DURHAM:

It is, your Honor.

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

Is

A149

37
I think that's for three of the four victims

1
2

families.

The fourth family did not submit anything at

3

that point and I don't believe they have even since then.

4

THE COURT:

5

The government is okay with proceeding with the

6

issue of restitution then?

7

MR. DURHAM:

8

THE COURT:

9

Yes, your Honor.
Mr. Ryan, does your client have any

objection to the restitution amount?
MR. RYAN:

10
11

All right.

No, your Honor, despite its

impracticality.
THE COURT:

12

Whether or not they will be able to

13

collect that money from Mr. Portillo is a different issue,

14

but I believe it should be imposed in the amount

15

indicated, $24,108 as divided up and it will be due

16

immediately and payable at a rate of $25 per quarter while

17

in custody and 10 percent of his net income while he's on

18

supervised release should he ever be on supervised

19

release.
I will impose the $100 mandatory special

20
21

assessment.
I will not impose a fine because he has no

22
23
24
25

money.
Is there any legal reason why I cannot impose
that sentence, Mr. Durham?
PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A150

38
1

MR. DURHAM:

2

THE COURT:

3

MR. RYAN:

4

THE COURT:

5
6

No, your Honor.
Mr. Ryan?
No, your Honor.

I'm now going to pronounce the

sentence.
Mr. Portillo, it is the judgment of this court

7

in its discretion that you be sentenced to the custody of

8

the Attorney General through the Bureau of Prisons to a

9

term of imprisonment of 55 years, 660 months.

I impose

10

three years of supervised release to follow that term of

11

imprisonment with the standard conditions, the mandatory

12

conditions, and the one special condition that if you are

13

deported from the United States you will not illegally

14

reenter the United States.

15

I impose restitution in the amount of $24,108,

16

consisting of $8,723 to the Llivicura family, $7,385 to

17

the Lopez family and $8,000 to the Villalobos family due

18

immediately and payable at a rate of $25 per quarter while

19

you are in custody and 10 percent of your net custody

20

while you are on supervised release.

21

I impose a $100 mandatory special assessment.

22

waive the interest on the restitution, given his limited

23

resources, and I impose no fine.

24
25

Mr. Portillo, I need to advise you of your
statutory right to appeal.

You have the right to appeal

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

I

A151

39
1

your conviction and sentence.

2

the cost of appeal you may apply for leave to appeal

3

in forma pauperis.

4

appeal one will be appointed to represent you.

5

of appeal must be filed within 14 days of the judgment of

6

conviction.

information that needs to be dismissed.
MR. DURHAM:

9
10

If you cannot afford an attorney on

Is that correct?

That's correct, your Honor.

There are no open counts.

12

THE COURT:

The underlying juvenile information

is dismissed.
Are there any other issues -- Mr. Ryan, you had

14
15

said in your letter you wanted me to recommend FCI

16

Coleman.

17

MR. RYAN:

18

THE COURT:

19

Yes, your Honor.
I have no problem with recommending

that facility.

20

I'll put that in the judgment.

21

MR. RYAN:

22

THE COURT:

23

We

move to dismiss that at this time.

11

13

The notice

I believe there is an underlying juvenile

7
8

If you are unable to pay

Thank you.
Are there any other requests or

issues you have?

24

MR. RYAN:

25

THE COURT:

May I confer with the client?
Yes.

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A152

40
1

(There was a pause in the proceedings.)

2

MR. RYAN:

One dispute we have is that

3

Mr. Portillo had to go to another clique to get

4

Mr. Antichristo permission to organize this murder plot is

5

wrong.
It was Mr. Antichristo who was from another

6
7

clique that had to get the permission under their

8

structure.

9

communication but it's Mr. Antichristo that had to get the

10

permission from another clique in order to carry out what

11

we say is his plan.

12
13
14
15

Mr. Portillo facilitated by phone the

Outside of that I don't know if that makes any
difference.

But I think that's a factual issue.

THE COURT:

suggested that, that is not a factor in my sentence.

16

MR. RYAN:

17

THE COURT:

18

To the extent the government

Fine.
I want to emphasize I accept that

Antichristo was more culpable than him and I accept that.

19

MR. RYAN:

20

THE COURT:

Thank you.
And I also understand that he

21

arranged the phone call but I recall reading in one of the

22

papers that Antichristo went off to the side and had a

23

private conversation on the phone with the leader.

24

So I fully understand that.

25

MR. RYAN:

Thank you.

PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A153

41
1

2
3

THE COURT:

It's not based upon any belief that

he was the mastermind or the planner.
It's based upon his active role at every stage.

4

That's really what it comes down to

5

to think that particular disputed fact has any impact.

6

Okay?

7

MR. RYAN:

8

Thank you, very much.

9

THE COURT:

10

but I don't want him

I understand.

Thank you.

(The matter concluded.)

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
PAUL J. LOMBARDI, CERTIFIED REALTIME REPORTER
Official Court Reporter

A154
AO 245B (Rev. 02/18) Judgment in a Criminal Case
Attachment (Page 1) — Statement of Reasons

FILED

IKI PI CPV'Cj prcinp

U.S. DISTRICT COURT E.D.N.Y.

DEFENDANT: JOSUE PORTILLO
CASE NUMBER: CR 17-0366 (S-1)
DISTRICT:
Eastern District of New York

*

JUL 12 2019

*

STATEMENT OF REASONS LONG ISLAND OFFICE
(Not for Public Disclosure)
Sections I, II, III, IV, and VII of the Statement ofReasons form must be completed In allfelony and Class A misdemeanor cases.
I.

COURT FINDINGS ON PRESENTENCE INVESTIGATION REPORT
A. GZf

The court adopts the presentence investigation report without change.

B. □

The court adopts the presentence investigation report with the following changes. (Use Section Vtu ifnecessary)
(Check all that apply and specify court determination, findings, or comments, referencing paragraph numbers in the presentence report.)

1.

□

Chapter Two of the United States Sentencing Commission Guidelines Manual determinations by court: (briefly
summarise the changes, including changes to base offense level, or specific offense characteristics)

2.

□

Chapter Three of the United States Sentencing Commission Guidelines Manual determinations by court: (briefly
summarize the changes, including changes to victim-related adjustments, role in the offense, obstruction ofjustice, multiple counts, or
acceptance ofresponsibility)

3.

□

Chapter Four of the United States Sentencing Commission Guidelines Manual determinations by court: (briefly
summarize the changes, including changes to criminal history category or scores, career offender status, or criminal livelihood determinations)

4.

C. □

□

Additional Comments or Findings: (include comments orfactualfindings concerning any information in the presentence report,
including information that the Federal Bureau ofPrisons may rely on when it makes inmate classification, designation, or programming
decisions; any other rulings on disputedportions ofthe presentence investigation report; identification of those portions ofthe report in dispute
butfor which a court determination Is unnecessary because the matter will not affect sentencing or the court will not consider it)

The record establishes no need for a presentence investigation report pursuant to Fed.R.Crim.P. 32.
Applicable Sentencing Guideline: (ifmare than one guideline applies, list the guideline producing the highest offense level)

II.

COURT FINDING ON MANDATORY MINIMUM SENTENCE (Check all that apply)

A. □

One or more counts of conviction cany a mandatory minimum term of imprisonment and the sentence imposed is at or
above the applicable mandatory minimum term.

B. □

One or more counts of conviction carry a mandatory minimum term of imprisonment, but the sentence imposed is below
a mandatory minimum term because the court has determined that the mandatory minimum term does not apply based on:

C. Bf
III.

□

findings of fact in this case: (Specify)

□
□

substantial assistance (18 U.S.C. § 3553(e))
the statutory safety valve (18 U.S.C. § 3553(f))

No count of conviction carries a mandatory minimum sentence.

COURT DETERMINATION OF GUIDELINE RANGE: (BEFORE DEPARTURES OR VARIANCES)
Total Offense Level:
43
Criminal History Category:

__________________
_l____________________

Guideline Range: (after application of §5GI.t and §SGI.2)
Supervised Release Range: _2_________ to 5
Fine Range: $ 50,000
to $ 500,000

Iif6

_ years

liitf Fine waived or below the guideline range because of inability to pay.

to

months

A155
AO 24SB (Rev. 02/18) Judgment in a Criminal Case
Attachment (Page 2) — Statement of Reasons

Not for Public Disclosure

DEFENDANT: JOSUE PORTILLO
CASE NUMBER: CR 17-0366 (S-1)
DISTRICT:
Eastern District of New York

STATEMENT OF REASONS
IV.

GUIDELINE SENTENCING DETERMINATION (Check all that apply)

A. □
B. □

The sentence is within the guideline range and the difference between the maximum and minimum of the guideline range
does not exceed 24 months.
The sentence is within the guideline range and the difference between the maximum and minimum of the guideline range
exceeds 24 months, and the specific sentence is imposed for these reasons: (Use Section VlU ifnecessary)

C. sf

The court departs from the guideline range for one or more reasons provided in the Guidelines Manual.

D. □

The court imposed a sentence otherwise outside the sentencing guideline system (i.e., a variance). (Also complete Section VI)

(Also complete Section V.)

V.

□
stf
□
□
□
□
□
□
□
□
□

□

DEPARTURES PURSUANT TO THE GUIDELINES MANUAL (Ifapplicable)
A. The sentence Imposed departs: (Check only one)
□ above the guideline range
H below the guideline range
B. Motion for departure before the court pursuant to: (Check all that apply and specify reason(s) In sections C and D)
Plea Agreement
□ binding plea agreement for departure accepted by the court
□ plea agreement for departure, which the court finds to be reasonable
□ plea agreement that states that the government will not oppose a defense departure motion.
2.
Motion Not Addressed in a Plea Agreement
□ government motion for departure
O defense motion for departure to which the government did not obj ect
BZf defense motion for departure to which the government objected
□ joint motion by both parties
3.
Other
□ Other than a plea agreement or motion by the parties for departure
C. Reasons for departure: (Check all that apply)
□ 5K2.12 Coercion and Duress
□ 5K2.1 Death
4A1.3 Criminal History Inadequacy
□ 5K2.13 Diminished Capacity
□ 5K2.2 Physical Injury
5H1.1 Age
5H1.2 Education and Vocational Skills □ 5K2.3 Extreme Psychological Injury □ 5K2.14 Public Welfare
□ 5K2.16 Voluntary Disclosure of
5H1.3 Mental and Emotional Condition □ 5K2.4 Abduction or Unlawful
Offense
Restraint
□ 5K2.17 High-Capacity, Semiautomatic
5H1.4 Physical Condition
□ 5K2.5 Property Damage or Loss
Weapon
□ 5K2.18 Violent Street Gang
□ 5K2.6 Weapon
5H1.5 Employment Record
□ 5K2.20 Aberrant Behavior
5HI.6 Family Ties and Responsibilities □ 5K2.7 Disruption of Government
Function
□ 5K2.21 Dismissed and Uncharged
□ 5K2.8 Extreme Conduct
5H1.11 Military Service
Conduct
□ 5K2.22 Sex Offender Characteristics
5H1.11 Charitable Service/Good Works □ 5K2.9 Criminal Purpose
□ 5K2.23 Discharged Terms of
5 K1.1 Substantial Assistance
□ 5K2.10 Victim’s Conduct
Imprisonment
□ 5K2.24 Unauthorized Insignia
5K2.0 Aggravating/Mitigating
□ 5K2.11 Lesser Harm
Circumstances
□ 5K3.1 Early Disposition Program
(EDP)
Other Guideline Reason(s) for Departure, to include departures pursuant to the commentary in the Guidelines Manual: (see “List of
Departure Provisions "following the Index in the Guidelines Manual.) (Please specify)

D. state the basis for the departure. (Use Section VUI ifnecessary)
See attached rider.

A156
AO 245B (Rev. 02/18) Judgment in a Criminal Case
Attachment (Page 3) — Statement of Reasons

Not for Public Disclosure

DEFENDANT: JOSUE PORTILLO
CASE NUMBER: CR 17-0366 (S-1)
DISTRICT:
Eastern District of New York

STATEMENT OF REASONS
VI.

COURT DETERMINATION FOR A VARIANCE (Ifapplicable)
A. The sentence imposed is: (Checkonly one)
□ above the guideline range
□ below the guideline range
B. Motion for a variance before the COUrt pursuant to: (Check all that apply and specify reason(s) in sections C and D)
1.
Plea Agreement
□ binding plea agreement for a variance accepted by the court
□ plea agreement for a variance, which the court finds to be reasonable
□ plea agreement that states that the government will not oppose a defense motion for a variance
2.
Motion Not Addressed in a Plea Agreement
□ government motion for a variance
□ defense motion for a variance to which the government did not object
□ defense motion for a variance to which the government objected
□ joint motion by both parties
3.
Other
□ Other than a plea agreement or motion by the parties for a variance
C. 18 U.S.C. § 3553(a) and other reason(s) for a variance (Check all that apply)
□ The nature and circumstances of the offense pursuant to 18 U.S.C. § 3553(a)( 1)
□ Dismissed/Uncharged Conduct
□ Mens Rea
□ Extreme Conduct
□ Role in the Offense
□ Victim Impact
□ General Aggravating or Mitigating Factors (Specify•)
_________________
□ The history and characteristics of the defendant pursuant to 18 U.S.C. § 3553(a)(1)
□ Lack of Youthful Guidance
□ Aberrant Behavior
□ Mental and Emotional Condition
□ Age
□ Military Service
□ Charitable Service/Good
Works
□ Non-Violent Offender
□ Community Ties
□ Diminished Capacity
□ Physical Condition
□ Drug or Alcohol Dependence □ Pre-sentence Rehabilitation
□ Employment Record
□ Remorse/Lack of Remorse
□ Family Ties and
□ Other: (Specify)
Responsibilities
□ Issues with Criminal History: (Specify) ___________________________________________________________
□ To reflect the seriousness of the offense, to promote respect for the law, and to provide just punishment for the offense
(18 U.S.C. § 3553(a)(2)(A))
□ To afford adequate deterrence to criminal conduct (18 U.S.C. § 3553(a)(2)(B))
□ To protect the public from further crimes of the defendant (18 U.S.C. § 3553(a)(2)(C))
□ To provide the defendant with needed educational or vocational training (18 U.S.C. § 3553(a)(2)(D))
□ To provide the defendant with medical care (18 U.S.C. § 3553(a)(2)(D))
□ To provide the defendant with other correctional treatment in the most effective manner (18 U.S.C. § 3553(a)(2)(D))
□ To avoid unwarranted sentencing disparities among defendants (18 U.S.C. § 3553(a)(6)) (Specify in section D)
□ Toprovide restitution to any victims of the offense (18 U.S.C. § 3553(a)(7))
□ Acceptance of Responsibility
□ Conduct Pre-trial/On Bond □ Cooperation Without Government Motion for
□ Early Plea Agreement
□ Global Plea Agreement
Departure
□ Time Served (not counted in sentence) □ Waiver of Indictment
□ Waiver of Appeal
□ Policy Disagreement with the Guidelines (Kimbrough v. U.S., 552 U.S. 85 (2007): (Specify)
□ Other: (Specify)

_____________________________

D. Slate the basis for a variance. (Use Section VIII ifnecessary)

A157
AO 245B (Rev. 02/18)

Not for Public Disclosure

Judgment in a Criminal Case
Attachment (Page 4) — Statement of Reasons

DEFENDANT: JOSUE PORTILLO
CASE NUMBER: CR 17-0366 (S-1)
DISTRICT: Eastern District of New York

STATEMENT OF REASONS
VII.

COURT DETERMINATIONS OF RESTITUTION
A. □

Restitution Not Applicable.

B. Total Amount of Restitution: $

24,108.00

C. Restitution not ordered: (Check only one)
1.
2.

3.

4.
5.
6.

D. □

□

For offenses for which restitution is otherwise mandatory under 1S U.S.C. § 3663A, restitution is not ordered because
the number of identifiable victims is so large as to make restitution impracticable under 18 U.S.C. § 3663A(c)(3)(A).
□ For offenses for which restitution is otherwise mandatory under 18 U.S.C. § 3663A, restitution is not ordered because
determining complex issues of fact and relating them to the cause or amount of the victims’ losses would complicate
or prolong the sentencing process to a degree that the need to provide restitution to any victim would be outweighed
by the burden on the sentencing process under 18 U.S.C. § 3663A(c)(3)(B).
□ For other offenses for which restitution is authorized under 18 U.S.C. § 3663 and/or required by the sentencing
guidelines, restitution is not ordered because the complication and prolongation of the sentencing process resulting
from the fashioning of a restitution order outweigh the need to provide restitution to any victims under 18 U.S.C. §
3663(a)(l)(B)(ii).
□ For offenses for which restitution is otherwise mandatory under 18 U.S.C. §§ 1593, 2248,2259,2264, 2327 or
3663A, restitution is not ordered because the victim(s)'(s) losses were not ascertainable (18 U.S.C. § 3664(d)(5)).
□ For offenses for which restitution is otherwise mandatory under 18 U.S.C. §§ 1593, 2248, 2259, 2264, 2327 or
3663A, restitution is not ordered because the victim(s) elected to not participate in any phase of determining the
restitution order (18 U.S.C. § 3664(g)(1)).
□ Restitution is not ordered for other reasons. (Explain)

Partial restitution is ordered for these reasons (18 U.S.C. § 3553(c)):

VIII. ADDITIONAL BASIS FOR THE SENTENCE IN THIS CASE (Ifapplicable)

See attached rider.

Defendant’s Soc. Sec. No.:

Not Applicable

Defendant's Date of Birth:

5/1/2001

Defendant’s Residence Address: 54 Sags Strsst

Central Islip, New York 11722
Defendant’s Mailing Address:

Date of Imposition of Judgment
6/12/2019

Signature of Judge

Joseph F. Bianco, u.s-c.j./.i'iMu k (b.lMiA...)

Name and Title of Judge
Date Signed

nfitl r

A158

DEFENDANT:
CASE NUMBER:

JOSUE PORTILLO
17-CR-0366

Having considered all of the various 3553(a) factors, and the factors set forth in Miller v.
Alabama, 132 S. Ct. 2455 (2012), I find, in the exercise of my discretion, that a sentence of 660
months’ imprisonment (with three years’ supervised release) is warranted in this case.
As stated in detail on the record, that decision is based upon, among other things, the defendant’s
extremely violent conduct and the seriousness of the offense, which involved his participation in
the brutal, execution-style murders of four young men, in connection with the racketeering
activities of the violent MS-13 street gang. Specifically, the defendant stabbed and killed
Michael Lopez, while his co-conspirators simultaneously murdered the other three victims. As
outlined on the record, the defendant (albeit not a leader of the criminal activity) played a pivotal
role in the murder conspiracy and the carrying out of the murders. This sentence is thus
necessary, not only to reflect the seriousness of the offense and to promote respect for the law,
but also to provide a just sentence for the senseless and devastating loss of life from this offense.
The seriousness of this criminal conduct, and the danger it poses to the community, are
exacerbated by the fact that it was committed in connection with the activities of a violent street
gang. Moreover, this sentence is necessary as a general deterrent to others who might otherwise
participate in a similar type of violent conduct in aid of the racketeering activities of street gangs.
The Court also has considered the Miller factors in determining, in its discretion, that a 55-year
sentence is warranted. Thus, pursuant to Miller, the Court has considered age-related culpability
factors including, inter alia, (1) the defendant’s chronological age and characteristics including
any immaturity, impetuosity, and failure to appreciate risks and consequences; (2) the family and
home environment that surrounds the defendant; (3) the circumstances of the homicide offense,
including the extent of the defendant’s participation in the conduct and the way familial and peer
pressures may have affected him; and (4) the possibility of rehabilitation. Finally, the Court
notes that, although mentioned as a potential factor in the Miller case, there is no evidence in this
particular case that the defendant’s youthful age affected his ability to bargain with police
officers and prosecutors for a lesser charge, or his ability to assist his own attorneys.
As set forth in detail on the record, the Court concludes that the defendant has several mitigating
factors, including, among other things: his age at the time of the offense, his remorse, his
acceptance of responsibility, and his attempt to cooperate. In fact, the Court concludes that a
downward departure under the advisory Guidelines system is warranted under Section 5H1.1
because of the defendant’s age at the time of the offense. Given these mitigating factors and
balancing them with all of the Section 3553(a) factors and the Miller factors, the Court believes
that the advisory Guidelines range of life is not warranted, and that 55 years’ imprisonment
(rather than a higher amount) is sufficient (but not greater than necessary) to account for all of the
3553(a) factors. Moreover, although the Court has considered the defendant’s arguments for a
lower non-Guidelines sentence, the Court rejects those arguments and finds, in its discretion, that
this sentence is necessary to adequately account for all of the Section 3553(a) factors for the
reasons stated above and on the record, especially to reflect the seriousness of the offense,
promote respect for the law, and to provide deterrence.

A159

As set forth in detail on the record, the Court concludes that this sentence is warranted even when
the Miller factors are considered in light of all the Section 3553(a) factors. First, although the
defendant was 15 at the time of the offense and had some level of immaturity, his participation in
these murders was not an impulsive or impetuous act, or one where the defendant did not
appreciate the risks and consequences of his conduct. The murders were planned and pre­
meditated. Second, with respect to his family and home environment, notwithstanding his
difficult childhood, there is nothing in his family background that explains his extremely
depraved conduct in this case. Third, the circumstances surrounding these brutal murders,
including the defendant’s particular role in the murders, strongly weigh in favor of the 55-year
sentence. With respect to the issue of peer pressure, the defendant decided to participate in these
murders without any peer pressure from gang leadership. With respect to the Miller factor
regarding the possibility of rehabilitation, the Court concluded, in connection with the decision to
transfer the defendant to adult status, that the defendant is not likely to be successful in
rehabilitation and that his current risk of recividism is extremely high. The Court again reaches
that conclusion based upon the record at sentencing and views the defendant as an extremely
dangerous individual from whom society needs to be protected for an extended period of time.
Moreover, even apart from his high level of future dangerousness, the Court (as noted above)
believes, in its discretion, that this sentence is necessary in order to adequately reflect the other
factors, described above and on the record, including the extreme harm caused to the victims and
their families.
Finally, the Court notes that it has extensively considered information regarding juvenile
sentences across the nation in connection with extremely violent conduct and does not believe
that this sentence results in any unwarranted sentencing disparities when considered in light of
these other sentences. In any event, to the extent that there is any disparity, it is outweighed by
the other factors that exist under the circumstances of this particular case.
In sum, after considering the Section 3553(a) factors and the Miller factors, the Court concludes
in its discretion that this sentence is warranted in this case and is necessary to adequately account
for all of the sentencing factors. It is sufficient, but no greater than is necessary to adequately
account for all of the Section 3553(a) factors. The Court also notes that its sentence would be the
same regardless of the advisory Guidelines range in this case, based upon all of the Section
3553(a) factors discussed above and on the record.

